<html>
<title> - AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2016</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]



 
   AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2016

                              ----------                              


                        TUESDAY, MARCH 17, 2015

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:02 a.m. in room SD-192, Dirksen 
Senate Office Building, Hon. Jerry Moran (chairman) presiding.
    Present: Senators Moran, Blunt, Cochran, Collins, Hoeven, 
Daines, Merkley, Tester, and Udall.

                       DEPARTMENT OF AGRICULTURE

STATEMENT OF HON. THOMAS J. VILSACK, SECRETARY
ACCOMPANIED BY:
        DR. ROBERT JOHANSSON, ACTING CHIEF ECONOMIST
        MR. MICHAEL L. YOUNG, BUDGET OFFICER


                opening statement of senator jerry moran


    Senator Moran. The subcommittee will come to order. Senator 
Merkley, the ranking member, is en route. We have a time 
challenge today. Two votes are scheduled at 11:00. And so we're 
going to forego opening statements. Senator Merkley and I will 
make no comments more than what I'm making right now. And 
Secretary Vilsack, welcome.
    What I think will happen at around 11 o'clock is that we 
will have a rotating chairman of this subcommittee, so that 
during the first vote, I will go vote and come back, and then 
as the second vote is called, my hope is that we have concluded 
our hearing. So we will try to keep this going, and mostly 
directed toward statements.


                           prepared statement


    Let me thank you for your public service, your care for 
farmers and ranchers of our country. Thank you for this weekend 
being at the National Farmers Union annual meeting, this time 
in Wichita, Kansas. We are delighted to have you in our State.
    [The statement follows:]
               Prepared Statement of Senator Jerry Moran
    This hearing will come to order. Good morning. The purpose of 
today's hearing is to discuss the Department of Agriculture's fiscal 
year 2016 budget request, and thank you to Secretary Vilsack, Dr. 
Johansson, and Mr. Young for being here today. Secretary Vilsack, I 
enjoyed getting to visit with you the other day and look forward to 
having another discussion about the Department's budget and priorities 
for the year.
    Agriculture remains one of the bright spots in our nation's 
economy, supporting more than 16 million jobs nationwide and forming 
the backbone of our rural communities. American farmers and ranchers 
are the best at what they do when given the opportunity to compete on 
an even playing field.
    After a long, arduous process and a great deal of economic 
uncertainty, Congress enacted the Agricultural Act of 2014 one year 
ago. The Farm Bill authorized sweeping changes to commodity and crop 
insurance programs, consolidated and reinforced conservation efforts, 
and reauthorized vital research and rural development programs. 
Agriculture is Kansas's #1 industry--directly responsible for 37 
percent of the state's economy. Enactment of a new Farm Bill was 
welcome news for producers, research institutions, and rural 
communities in my home state.
    It is now the responsibility of this Committee to continue 
oversight of Farm Bill implementation and provide USDA the resources it 
needs to ensure its effectiveness. Producers are facing a series of 
important decisions for their operations in the coming weeks, and the 
Department's guidance will be vital in educating farmers to determine 
which program best suits their interests.
    The challenges farmers and ranchers face are not limited to factors 
in their control. Unpredictable weather conditions and volatile foreign 
markets wreak significant impacts on a producer's bottom line. Many 
parts of the country are still suffering from persistent drought 
conditions, and this year's snowpack deficit appears to offer little 
relief to western states. Pests and diseases also pose significant 
threats to plants and animals--and their respective industries--as we 
are witnessing with citrus greening and avian influenza. Investments in 
agriculture research help mitigate these impacts, both environmentally 
and economically, and prepare producers for future adverse conditions.
    This year's budget request for the Department of Agriculture 
proposes a $900 million increase above the enacted levels in fiscal 
year 2015. I support many items in the request, but we must work to 
prioritize investments based in fiscal reality. As Chairman, I look 
forward to working with Senator Merkley and other members of the 
subcommittee to identify those priorities and make the most effective 
and efficient decisions on behalf of American taxpayers.
    I look forward to discussing these issues and others with our 
witnesses today. I would now like to turn to our Ranking Member, 
Senator Merkley, for his opening statement.

    Senator Moran. And Senator Merkley, it is my understanding 
we have both agreed to no opening statements, although I may 
have just violated that. And I have called the meeting to 
order. I would defer to the Senator from Oregon.
    Senator Merkley. Well, thank you very much. I'm delighted 
to be here, and I'm happy for us to expeditiously proceed.
    Senator Moran. Recognize the Secretary of Agriculture, 
Secretary Vilsack.

              SUMMMARY STATEMENT OF HON. THOMAS J. VILSACK

    Secretary Vilsack. Mr. Chairman, thank you very much, and I 
certainly appreciate the opportunity to be here.
    [The statement follows:]
              Prepared Statement of Hon. Thomas J. Vilsack
    Mr. Chairman and distinguished members of this Subcommittee, I 
appreciate the opportunity to appear before you to discuss the 
Administration's priorities for the Department of Agriculture (USDA) 
and provide you an overview of the President's 2016 budget. Joining me 
today are Robert Johansson, USDA's Acting Chief Economist, and Michael 
Young, USDA's Budget Officer.
    The President's budget strengthens the middle class and helps 
America's hard-working families get ahead in a time of relentless 
economic and technological change. Investments made by USDA work 
together to support the most productive agricultural sector in the 
world, attract and retain a talented labor force, improve connectivity 
and access to information in rural communities, move more American-
grown products to market, and make rural communities places where 
businesses--farm and non-farm alike--want to innovate, grow, and create 
more good paying jobs. These investments reward hard work, generate 
rising incomes, and allow everyone to share in the prosperity of a 
growing America.
    In the past 6 years, USDA assisted more than 900,000 rural families 
to buy or refinance a home, helping 146,000 rural Americans become 
homeowners in fiscal year (FY) 2014 alone. Since 2009, we have invested 
a total of $48.3 billion in new or improved infrastructure in rural 
areas, which helped 15.7 million rural residents get access to clean 
drinking water and better waste water disposal. Modernized electrical 
service was delivered to more than 5.5 million subscribers. More than 
21,000 grants and loans helped approximately 89,000 rural small 
businesses grow, creating or saving an estimated 418,000 jobs between 
fiscal year's 2009 and 2014.
    We have also continued our StrikeForce Initiative, which represents 
a broad commitment to increase investments in poverty-stricken rural 
communities through intensive outreach and stronger partnerships with 
community organizations. Since the inception of StrikeForce in 2010, 
USDA has partnered with almost 500 community and faith-based 
organizations, businesses, foundations, universities and other groups 
to support 109,000 projects with almost $14 billion in investments in 
rural America. We are providing a pathway to success and expanding the 
middle class.
    Critical to our efforts is the 2014 Farm Bill, which enhanced the 
array of authorities and resources to improve agricultural 
productivity, to strengthen the foundation for helping rural 
communities prosper, to enhance the resiliency of forests and private 
working lands, and to ensure access to a safe, diverse and nutritious 
food supply. Farmers, ranchers and those working in supporting 
industries maintain an agriculture sector that has seen strong growth 
over the past 6 years. Agriculture and agriculture-related industries 
account for about $775.8 billion in economic activity, support one out 
of every 11 jobs in the economy, and help to maintain vibrant, thriving 
rural communities.
    The Department has completed implementation of many new Farm Bill 
authorities. This includes major new safety net programs providing 
certainty to American agricultural producers going into the 2015 crop 
year. We have made available over $5 billion in critical assistance to 
producers across the country since sign-up for the disaster programs 
began on April 15, 2014. Significant new crop insurance protections 
were also made available. America's new and beginning farmers and 
ranchers, veteran farmers and ranchers, and women and minority farmers 
and ranchers were given improved access to credit.
    In fiscal year 2014, exports of U.S. food and agricultural products 
set a new record, reaching $152.5 billion and supporting nearly one 
million jobs here at home. Agricultural exports have climbed more than 
58 percent in value since 2009, totaling $771.7 billion over the past 5 
years. Agricultural exports have increased in volume, demonstrating an 
increasing global appetite for American-grown products. Between 2009 
and 2014, more than 6,000 U.S. companies participating in USDA-endorsed 
trade shows reported total on-site sales of more than $1.3 billion and 
more than $7.2 billion in 12-month projected sales. Rural exports 
support farm income, which translates into more economic activity in 
rural areas. In 2012, each dollar of agricultural exports stimulated 
another $1.27 in business activity. As requested by the President, we 
need trade promotion authority to protect our workers, protect our 
environment, and open new markets to products stamped ``Made in the 
USA.''
    USDA is also helping producers tap into growing consumer demand for 
locally-grown and organic food. USDA data indicate that local food 
sales totaled at least $6.1 billion in 2012. Demand for organic food 
products also continues to grow and this sector now accounts for $35 
billion in annual U.S. sales. In 2013, the National Organic Program 
helped an additional 763 producers become certified organic, an 
increase of 4.2 percent from the previous year.
    USDA's investments support strong local and regional supply chains 
and the rural jobs that come with them. Since 2013, USDA has made over 
500 investments in local food infrastructure and direct marketing 
opportunities to help connect farmers and consumers and create jobs all 
along the supply chain for local food. In addition, USDA has made 
expanding SNAP recipients' access to fresh fruits and vegetables 
through farmers markets a priority in recent years. In 2008, about 750 
farmers markets and direct marketing farmers accepted SNAP. As of 
January 2015, over 5,300 participated in markets accepting SNAP.
    USDA continues to work with land-grant universities to deliver 
science-based knowledge and practical information to farmers, ranchers 
and forest landowners to support decisionmaking, innovation and 
economic opportunity. USDA leverages its research by making data more 
widely available. In 2014, 60 new cooperative research and development 
agreements were executed, 119 patent applications were filed, 83 
patents were received, and 412 income-bearing license agreements were 
in effect. As authorized by the Farm Bill, USDA created the $200 
million Foundation for Food and Agriculture Research, which will 
advance the research mission of the Department and foster collaboration 
with public and private research efforts.
    Advances in biotechnology require thorough review by USDA before 
being approved, a practice commonly call deregulation. USDA needs to 
complete its review in a timely manner to facilitate planning and 
adoption of new technologies. To address this need, in 2012, USDA 
streamlined and improved the process for making determinations on 
petitions involving biotechnology. Because of the enhancements, we 
reduced the length of the petition review by over 600 days for 
petitions that do not require an environmental impact statement (EIS). 
USDA estimates that the cumulative number of actions taken to 
deregulate biotechnology products based on a scientific determination 
that they do not pose a plant pest risk will increase from a cumulative 
total of 87 actions in 2011 to an estimated cumulative total of 119 
actions in 2016.
    USDA's conservation efforts have enrolled a record number of acres 
in programs that have saved millions of tons of soil, improved water 
quality, preserved habitat for wildlife and protected sensitive 
ecological areas. To accomplish these goals, USDA has expanded beyond 
its traditional conservation programs and partnered with a record 
number of farmers, ranchers and landowners on landscape-scale 
conservation projects since 2009. As an example, under the newly 
authorized Regional Conservation Partnership Program (RCPP), USDA 
funded 115 projects that will build on the results achieved by USDA's 
traditional programs. RCPP empowers communities to set priorities and 
lead the way on conservation efforts important for their region. Such 
partnerships also encourage private sector investment so we can make an 
impact that's well beyond what the Federal government could accomplish 
on its own.
    USDA continues to lead the way for renewable energy by supporting 
the infrastructure needed to grow the new energy economy. In 2014, more 
than 500 new awards under the Rural Energy for America Program helped 
USDA to reach a milestone of adding more than 8,000 projects between 
2009 and 2014. Currently, REAP funds a total of 10,800 projects around 
the country to help producers and rural businesses save energy and 
increase their profitability. To support farmers producing biomass for 
renewable energy, USDA offered insurance coverage for farmers growing 
biofuel crops like switchgrass and camelina, and we are helping 
identify American farmland most suitable for growing energy crops. 
Under expanded authority provided by the 2014 Farm Bill, we are working 
to expand the number of commercial biorefineries in operation that 
produce advanced biofuels from non-food sources through the Biorefinery 
Assistance Program. We also took new steps to support biobased product 
manufacturing that promises to create new jobs across rural America--
including adding new categories of qualified biobased products for 
Federal procurement and establishing reporting by Federal contractors 
of biobased product purchases.
    Combating foodborne illness is one of our top priorities. In 2013, 
the Food Safety and Inspection Service (FSIS) developed the Salmonella 
Action Plan that outlines the measures FSIS will employ to achieve 
lower contamination rates in agency regulated products. The Plan 
includes strategies, such as the newly developed performance standards 
for ground poultry and chicken parts that will reduce illnesses. In 
addition, the recently implemented poultry inspection system will 
prevent an additional 5,000 foodborne illnesses each year through the 
improved control of Salmonella and Campylobacter.
    The Administration strongly supports the Supplemental Nutrition 
Assistance Program (SNAP) and other critical programs that reduce 
hunger and help families meet their nutritional needs. SNAP is the 
cornerstone of the Nation's nutrition assistance safety net, touching 
the lives of millions of low-income Americans, the majority of whom are 
children, the elderly, or people with disabilities. SNAP kept over 5 
million people, including nearly 2.2 million children, out of poverty 
in 2013. Recent research has shown that SNAP not only helps families 
put food on the table, but it has a positive long-term impact on 
children's health and education outcomes. We also support the ongoing 
implementation of the Healthy, Hunger-Free Kids Act. Over 90 percent of 
schools report that they are successfully meeting the new nutrition 
standards, serving meals with more whole grains, fruits, vegetables, 
lean protein and low-fat dairy, and less sodium and fat.
    We must continue our efforts to address the challenges that 
continue to confront rural America. The 2016 budget builds on our 
success and proposes a set of investments to spur innovation, create 
new markets and job opportunities, enhance climate resiliency, improve 
access to a safe, nutritious food supply, and modernize infrastructure.
    USDA's total budget for 2016 we are proposing before this 
Subcommittee is $144 billion, of which approximately $124 billion is 
mandatory funding. The majority of these funds support crop insurance, 
nutrition assistance programs, farm commodity and trade programs and a 
number of conservation programs. The budget includes mandatory funds to 
fully support estimated participation levels for the Supplemental 
Nutrition Assistance Program (SNAP) and Child Nutrition programs. For 
discretionary programs of interest to this Subcommittee, our budget 
proposes $20 billion, approximately $908.5 million above the 2015 
enacted level. That level fully funds expected participation in the 
Special Supplemental Nutrition Program for Women, Infants, and 
Children. It includes the funding needed to meet our responsibility for 
providing inspection services to the Nation's meat and poultry 
establishments. The budget also includes over $1 billion to renew 
approximately 255,000 expiring contracts for rental assistance and 
includes new authorities to ensure the long term sustainability of this 
program.
    Agriculture is an engine of growth and prosperity, directly or 
indirectly supporting 16 million jobs. The 2016 budget provides a 
strong farm safety net and makes investments to meet challenges of a 
competitive global market, changing climate, and making agriculture a 
reality for new and beginning farmers. The budget proposes a loan level 
of about $6.145 billion for direct and guaranteed farm ownership and 
operating loans, 85 percent of which will be made to beginning farmers 
and ranchers and socially disadvantaged producers. The budget also 
includes about $4 million to help new and beginning farmers and 
ranchers overcome the barriers they face when entering agriculture. In 
addition to providing funding to establish a Military Veterans 
Agricultural Liaison as authorized by the 2014 Farm Bill, the budget 
also establishes a $2.5 million program to help veterans develop 
farming and ranching skills needed to become producers.
    The rural economy will be even stronger because of the investments 
in rural infrastructure made by USDA. We will make over $1 billion in 
investments in rural businesses estimated to provide approximately 
32,000 jobs in rural areas. Over $2.2 billion targeted to community 
facilities will expand educational opportunities for students, 
facilitate delivery of affordable healthcare, and ensure the 
availability of reliable emergency services. Funding for broadband is 
more than doubled. Through a pilot called Rural Corps, USDA will work 
in partnership with local organizations to deploy highly trained staff 
and increase the likelihood that investments in infrastructure and 
economic development are strategic, creating jobs and long-term 
economic benefits. In 2016, USDA will provide over 170,000 rural 
residents the assistance needed to become homeowners by making 
available nearly $25 billion in loans to increase housing opportunities 
in rural area. Approximately $900 million in direct loans will ensure 
that the very-low and low-income borrowers with the ability to repay 
mortgage debt are provided with a vehicle to access mortgage financing 
for homes located in rural areas.
    Despite these investments, 85 percent of America's persistent 
poverty counties are in rural areas and rural childhood poverty rates 
are at their highest point since 1986. To address this need, $20 
million is provided for a Rural Child Poverty initiative, which would 
support innovative strategies to combat rural child poverty through a 
demonstration program. Additionally, funding is more than doubled for 
the Community Facilities Grant Program, which enables USDA to support 
investments in high-need areas and also leverage partnerships aimed at 
reducing child poverty, such as co-locating healthcare, nutrition 
assistance, and job-training programs. In both cases, this funding will 
be used in rural areas experiencing severe economic distress, such as 
StrikeForce, Promise Zones, and Tribal areas.
    Access to a plentiful supply of safe and nutritious food is 
essential to the well-being and productivity of all Americans. As many 
as 200,000 families with children could benefit each year, beginning in 
the summer of 2016, from the proposed expansion of summer EBT 
demonstration projects, including $67 million to support the second 
year of the Summer Electronic Benefit Transfer (EBT) pilot to reduce 
food insecurity among urban and rural children during the summer months 
when school meals are not available. The budget also includes $35 
million in school equipment grants to aid schools in serving healthy 
meals and provides continued support for other school-based resources. 
The budget proposes an additional $25 million to bolster SNAP 
Employment and Training programs, which will allow some of our nation's 
poorest individuals to work toward self-sufficiency and continue to 
receive critical food assistance while doing so. Nationwide, USDA 
estimates that 23.5 million people, including 6.5 million children, 
live in low-income areas without easy access to a supermarket. To 
expand access to nutritious foods, the budget invests $13 million in a 
newly authorized Healthy Food Financing Initiative that will provide 
funding for developing and equipping grocery stores and other small 
businesses and retailers selling healthy food in communities that 
currently lack these options. Americans will be better protected from 
foodborne illness with nearly 23,000 fewer illnesses projected in 2016 
from 2014 as a result of improved food inspection.
    Food for Progress and the McGovern-Dole International Food for 
Education and Child Nutrition Program will continue to provide benefits 
to millions of people overseas. These programs have helped to engage 
recipient countries not only by delivering food assistance, but also by 
fostering stronger internal production capacity and infrastructure, 
generating employment, boosting revenue, and developing new markets and 
productive economic partnerships. The budget provides $20 million to 
support the local and regional procurement of food aid commodities for 
distribution overseas to complement existing food aid programs and to 
fill in nutritional gaps for targeted populations or food availability 
gaps caused by unexpected emergencies. Also, the budget proposes the 
authority to use up to 25 percent of Title II resources for these types 
of flexible emergency interventions that have proven to be so critical 
to effective responses in complex and logistically difficult 
emergencies.
    USDA research plays a key role in fostering innovation and 
advancing technologies that increase the efficiency, sustainability, 
and profitability of American agriculture. Economic analysis finds 
strong and consistent evidence that investment in agricultural research 
has yielded high returns per dollar spent. The budget includes an 
increase of $125 million for the Agriculture and Food Research 
Initiative. Funding for USDA's role in Federal efforts combatting anti-
microbial resistant bacteria and improving pollinator health totals $77 
million and $79 million, respectively. As part of the Administration's 
multi-agency initiate to support continued investment and innovation in 
the manufacturing sector, the budget also includes $80 million to 
support two new Federal-private manufacturing institutes, with one 
dedicated to advanced biomanufacturing, while the other will focus on 
development of nanocellulosics. Investments to upgrade the Department's 
aging laboratory infrastructure include $206 million to fully fund five 
priority construction and renovation needs, as identified in the 
Congressionally-mandated report issued by the Department in 2012.
    To enhance resilience to climatic events, the budget provides $200 
million for the Watershed and Flood Preventions Operations (WFPO) to 
help communities adapt to changing natural resource conditions and 
climate change, and to minimize the impacts of natural disasters, 
including coastal flooding. USDA will utilize the broad authorities of 
WFPO to help communities create more resilient infrastructure and 
natural systems.
    To protect the integrity of the programs we administer, we continue 
to work aggressively to identify and eliminate waste, fraud, and abuse. 
Program integrity is critical to the overall success of the programs we 
administer and funds must be used properly to earn America's trust that 
these programs deliver results while protecting taxpayer dollars. The 
budget builds on existing efforts and provides strategic increases, 
including an increase of $14.5 million to automate and streamline 
reporting, increase operational efficiency, reduce improper payments, 
and otherwise enhance program integrity for Child Nutrition Programs. 
The budget requests an additional $4 million to ensure that States are 
meeting the highest standards of program integrity in administering 
SNAP. The budget also includes $2.1 million for the Risk Management 
Agency to enhance regulatory compliance, with a focus on improving 
error rate sampling for improper payments.
    While providing record levels of service to rural America, USDA has 
improved management operations. Through the Blueprint for Stronger 
Service, USDA has taken proactive steps in recent years to reduce 
spending, streamline operations and cut costs. Our savings and cost 
avoidance results for the American taxpayer through the end of fiscal 
year 2014 were recently revised upward to $1.368 billion from the 
previous $1.197 billion figure reported in January 2014. I appreciate 
the Subcommittee's approval of authority allowing the Department to 
establish a nonrecurring expense fund for facilities infrastructure 
capital acquisition. This fund will provide much needed resources in 
future years for USDA's infrastructure modernization.
    The President is again asking Congress for authority to submit 
fast-track proposals to reorganize or consolidate Federal programs and 
agencies to reduce the size of Government or cut costs. Granted the 
authority, the Administration is proposing to consolidate the FSIS and 
the food safety components of the Food and Drug Administration to 
create a single new agency within the Department of Health and Human 
Services. The President also proposes the consolidation of certain 
business programs in a new department dedicated to promoting U.S. 
competitiveness and exports.
    The Farm Bill included several reforms to the Federal crop 
insurance program; however, there remain further opportunities for 
improvements and efficiencies. The President's 2016 budget includes two 
proposals to reform crop insurance, which are expected to save $16 
billion over 10 years. This includes reducing subsidies for revenue 
insurance that insure the price at the time of harvest by 10 percentage 
points and reforming prevented planting coverage, including adjustments 
to payment rates. These reforms will make the program less costly to 
the taxpayer while still maintaining a quality safety net for farmers.
    I believe that the future is bright for America and in particular 
for rural Americans. The investments we make today are having an impact 
and creating a future full of opportunity. The budget presented to you 
will achieve the President's vision for the middle class by restoring 
the link between hard work and opportunity and ensure that every 
American has the chance to share in the benefits of economic growth. At 
this time, I will be glad to answer questions you may have on our 
budget proposals.

    Secretary Vilsack. And in the interest of time, I'm 
prepared to take your first question.

                           DIETARY GUIDELINES

    Senator Moran. Let me start with one related to dietary 
guidelines, a question that you and I discussed in my office 
and a question that you have not had to respond to previously.
    I was looking back at the history to find out what the 
purpose of the dietary guidelines, what's the statutory 
authority, what are the criteria by which those dietary 
guidelines are to be determined. And I have now read that, and 
it talks about nutritional and dietary information.
    I've been most recently interested to see what Senator Dole 
had to say in February. Just a few days ago, he talked about 
being the co-author of the dietary goals for the United States 
with Senator McGovern and indicated his concern about the 
direction that the advisory committee report is heading.
    These dietary guidelines, when you and I talked, you talked 
about how you're coloring within your lines, a phrase that I 
remember. And I am interested in knowing whether you have the 
ability to insist that others color within their lines, what 
conversations you've had with Secretary Burwell, and what your 
expectation is for the next step in the dietary guideline 
process.
    Secretary Vilsack. Mr. Chairman, we are in a comment period 
right now, so we are soliciting comments from folks. I have 
talked briefly with Secretary Burwell, primarily about the 
request for an extension of time in terms of the comment 
period. We obviously are under a deadline to get this done 
before the end of the year. So we will be working with the 
folks at the Department of Health and Human Services (HHS) to 
determine what's best in terms of an extension if one is 
granted.
    I would say that we understand, or I understand, my 
responsibility is to focus on diet and nutrition, and well we 
should, given the challenges that we face with the obesity 
epidemic among our children and some of the concerns of chronic 
diseases. I have been interested in the testimony that 
Commissioner Hamburg has provided in which she has indicated a 
desire also to stay within the statutory guidelines, to color 
within the lines, as you say.
    And I think we understand and appreciate that folks can 
have many recommendations and many opinions, but at the end of 
the day, our decisionmaking process has to be focused on 
dietary nutrition, so that we can give a general guideline to 
American families, and that we can then inform our Federal 
nutrition programs.
    Senator Moran. So it is your understanding that what the 
goal is is dietary and nutritional guidelines, nothing more or 
broader.
    Secretary Vilsack. That's the direction that you have given 
us, and that's the direction that I intend to follow.
    Senator Moran. Mr. Secretary, let me ask you then about the 
public comment. You mentioned that we are in the process of 
public comment right now, granting 45 days for those public 
comments. The report is 571 pages long. That's not a lot of 
time for stakeholders and interested parties to digest that 
information. Are you considering an extension of that deadline?
    Secretary Vilsack. I would point out, Mr. Chairman, that 
that is longer than the last guidelines. I think the last time 
we went 30 days. We have extended it to 45 days. And I 
recognize that there is a lot of issues and controversy 
associated with this. So I would certainly be willing to 
consider lengthening that time. I'm not sure that we can afford 
to go as long as some have suggested, but it may very well be 
appropriate for us to extend the deadline a bit.

                   CONSERVATION TECHNICAL ASSISTANCE

    Senator Moran. Mr. Secretary, let me turn to another topic 
of importance in Kansas and across the country, conservation. 
One of the confusing things to me about the President's budget 
is a proposed reduction in funding of technical assistance at 
the Natural Resources Conservation Service (NRCS).
    And even the budget states that, in terms of environmental 
outcomes, the funding reduction will result in lost 
conservation opportunities and reduce natural resources 
benefits. You know, it's a $74 billion budget. Why is there a 
$44 million reduction in technical assistance funding?
    Secretary Vilsack. Well, the challenge in this budget, Mr. 
Chairman, is that 50 percent of our budget is in four areas. It 
is in fire suppression and forest restoration, it is in food 
safety, WIC, and in rental assistance. And unfortunately, in 
several of those four line items, we have seen increases that 
we believe need to be dealt with through some congressional 
direction and action. So we are constrained a bit by the fact 
that those increase.
    We are also cognizant of the demands that you all placed on 
us relative to sequester and to make sure that we stay within a 
reasonable budget. This is a budget, by the way, that is less 
than the first full budget that I worked with in fiscal year 
2010. So we are trying to be conscious.
    Let me say as far as the technical assistance, it doesn't 
necessarily mean that less work is going to get done, and I say 
that for two reasons. One, because I think we are going to see 
significant increases in the utilization of technology that 
will provide us the opportunity to expand our reach in terms of 
conservation. And secondly, we are extending the number of 
partnerships that we have with a variety of other organizations 
and entities that can provide technical assistance as well.
    So it doesn't necessarily translate to less conservation. 
It just simply means that we are going to be more reliant on 
technology and partnerships.

                             CROP INSURANCE

    Senator Moran. Thank you. Let me ask about another 
President's budget recommendation, this one related to crop 
insurance. I am sure that you have heard as I have about the 
importance of crop insurance. When they have a conversation 
with the farmer, that's generally the point they would 
highlight about the importance and value of crop insurance to 
them.
    We are seeing, in the President's budget recommendation, a 
reduction in the support levels for farmer's crop insurance 
premiums. I would like to have your response on that.
    And then I would like to tell you that, in voting for the 
farm bill, one of the things I thought was most important for 
farmers, particularly Kansas farmers, was changes in crop 
insurance related to the ability to have separate enterprise 
units by practice, separate coverage levels by practice, and an 
APH yields exclusion available to take out a year of, in our 
case, drought.
    What I discovered when I returned home after the farm bill 
and people started looking at the farm bill and taking a look 
at their crop insurance for winter wheat, elimination of that 
year and the other two provisions that I thought were so 
valuable were not available for winter wheat because of timing. 
And my question is, can you assure me, and I can assure my 
farmers, that the timing will not be a problem and that those 
provisions will be updated sufficient to be used as they make 
decisions and have the consequences of the new farm bill for 
winter wheat?
    Secretary Vilsack. I believe so on the second question, Mr. 
Chairman. We are working very carefully to make sure that the 
2016 crop year for winter wheat is covered under Actual 
Production History (APH), and we are working diligently to get 
the irrigated enterprise issues resolved.
    As it relates to the budget, $8.2 billion, we believe, is 
adequate and sufficient to cover the $109 billion risk that is 
covered by crop insurance. There are two issues that I would 
point out.
    One is on the prevented planting. The Government 
Accountability Office (GAO) and our own inspector general have 
been critical of the way in which that program has been 
utilized. It is discouraging the planting of a second crop, and 
it ends up, essentially, overcompensating folks. So in response 
to the GAO concerns and our own inspector general's concerns, 
we made adjustments, and that is part of the reason why you see 
a reduced amount.
    The second area that I would point out, too, is on the 
harvest price loss aspect. Crop insurance is designed to 
protect against Mother Nature. The harvest price loss option 
basically provides coverage not just against Mother Nature, but 
also against market decisions that producers make. And so I 
think it is important to ask the question, what is the nature 
of the partnership between the taxpayer and the Federal 
Government and the farmer as it relates to that.
    When you see potential premium subsidies as high as 80 
percent for some farmers in some crops in that area, you have 
to ask yourself whether or not it's appropriate to adjust that 
downward a bit, which is what is reflected in the budget. So I 
think there are justifications for what we are proposing, but 
understand and appreciate that we do understand fully the 
importance of crop insurance.
    Senator Moran. I will follow up that would my time returns.
    Senator Merkley.

                      RURAL ENERGY SAVINGS PROGRAM

    Senator Merkley. Thank you. Thank you, Mr. Secretary. I 
wanted to start by asking you about the Energy Efficiency and 
Conservation Loan Program. This program provides loans to rural 
electrical co-ops, so that they can in turn provide loans to 
folks for energy-saving retrofits, both residential and 
commercial. It has not worked real well yet, and there have 
only been a couple of loans made to rural electrical co-ops.
    There is a program that has been authorized in the farm 
bill, the Rural Energy Savings Program, that is designed to try 
to make a more effective form of this strategy, because it's a 
win-win all the way around, creates a lot of jobs in rural 
areas, improves energy efficiency, and make homes more 
comfortable. Have you taken a look at this program and 
considered ways to improve on it and--well, I'll just stop 
there.
    Secretary Vilsack. Yes, we have, Senator. We basically are 
focusing primarily on a major initiative in a State that is 
very interested in pursuing energy efficiency, and we are very 
close to getting that statewide program in place, which will, I 
think, significantly increase interest in the energy efficiency 
program.
    One of the concerns, and I think you are well aware of this 
given your advocacy for this, is the interest rate and the fact 
that this is a relatively new program for the Rural Electric 
Cooperatives (RECs) is to implement, so it has been a learning 
curve, both for our folks and for the RECs. I think if we were 
to take a look at the interest rate, it would obviously 
increase the cost of the program, but it might increase the 
interest as well. We would continue to work with you and 
continue to work with Congress to make sure that we implement 
this in an appropriate way.
    But we are focused on it, and I am asking our team at the 
Rural Utilities Services (RUS) to get this done.

                              POLLINATORS

    Senator Merkley. Great. Well, I appreciate that very much. 
Look forward to continuing that conversation, because done 
right, it could be a powerful force for rural jobs. And as I 
head to my 36 counties every year and talk to folks in the 
rural counties, rural jobs would be a wonderfully welcomed 
item.
    Let me turn then to the concern over the loss of 
pollinators. And as you are very aware, and folks in the 
agricultural community are very well, we have suffered a lot of 
losses of honeybee colonies. We have seen the monarch butterfly 
migration collapse over the last 10 years. And this is 
significant for agriculture, since pollinators contribute more 
than $24 billion to the U.S. economy, and at least 90 of 
America is commercially grown crops are dependent on 
pollination.
    So can you talk a little bit about the proposal that you're 
putting forward in both be Agriculture and Food Rearch 
Institute (AFRI) and the Agriculture Research Service (ARS).
    Secretary Vilsack. Senator, the effort with pollinators is 
a complicated one, because it involves parasites, pesticides, 
pests, the stress of the travel that the pollinators undertake, 
the lack of crop diversity in some areas, so what is required 
is a holistic approach that involves research, and involves 
public education, and also involves habitat.
    In all three areas, we are working, and the request in the 
budget would reflect a desire to do more work on the research 
side, to understand better the stresses, to understand better 
the issue of parasites and pesticides and the like, the 
multiple causes. And we are also working through the Natural 
Resources Conservation Service (NRCS) and our Conservation 
Reserve Program (CRP) program to expand habitat, particularly 
in the upper Midwestern States where 65 percent of the hives 
basically end up during the summer months.
    The goal here is to get down from where we've been the last 
10 years, roughly 29 percent of our hives being lost, to 
getting it closer to 18 percent, which is a sustainable level. 
Last year, it was 23 percent, which is good news, but it's 
still not good enough.
    Public education is also important, and I think that's 
where--effort can undertake to make sure that people understand 
that they have a role to play here, from community gardens to 
the plantings that they make in their own individual personal 
gardens. You can create additional habitat. So it's a greater 
awareness, more research, and more habitat.
    Senator Merkley. So you have proposed an increase of just 
over $30 million in these activities. Is that high on your list 
of priorities?
    Secretary Vilsack. It is certainly a significant priority, 
particularly as it relates to the statistics that you provided 
in terms of the importance of pollinators. I am particularly 
focused on the fact that our almond crop, which is a fairly 
significant crop and an export opportunity for us, is very much 
dependent on us getting this right. And you mentioned the 
monarchs, that's another issue as well.

                           RENTAL ASSISTANCE

    Senator Merkley. Well, thank you, Mr. Secretary. I am going 
to switch to a different challenge which is that, over the next 
3 years, about 120 multifamily housing loans will mature each 
year, representing over 10,000 units of affordable housing that 
will be exiting the program. And this problem gets even worse 
down the road.
    In 2019, the number of maturing mortgages will exceed 1,100 
and continue to increase thereafter. When these loans are paid 
off, the projects will no longer be in USDA's affordable 
housing program, and the families will not have access to 
rental assistance or servicing options that the Department can 
offer. This is a real substantial challenge for real 
communities seeking affordable housing and I thought I would 
offer you the chance to comment on the strategies to address 
this.
    Secretary Vilsack. Well, Senator, we really appreciate you 
bringing this to the attention of the body. It is a critical 
issue. Seventy-five percent of our rental units could 
potentially get out of the program without access to vouchers 
as a result of mortgages being paid off. We are requesting a 
series of tools that would allow us to manage this more 
effectively.
    Those tools can include extending the life of an existing 
loan, re-amortizing that loan, using the resources potentially 
to improve the properties. We have also requested additional 
resources for new construction, which has not been the case for 
quite some time because of the rental assistance challenges 
that we face. We have also asked for a consideration of the 
voucher program to be available for a limited period of time as 
well for these expiring mortgages.
    It is a serious issue, and you are absolutely correct, 
these people have no place to go, given their current status. 
So we hope to be able to work with you to get a series of tools 
to be able to deal with this issue and the other issue with 
rental assistance in terms of the ever-increasing budget 
challenge that we face with rental assistance.
    Senator Merkley. Thank you very much.
    Senator Moran. Senator Merkley, thank you. Senator Cochran, 
the chairman of the full committee.

                      FARM SERVICE AGENCY FUNDING

    Senator Cochran. Mr. Chairman, thank you. Welcome, Mr. 
Secretary, to the hearing, and thank you for the good job you 
do as Secretary.
    One question occurs to me right off the bat here is why the 
administration has reduced its request for funding for people 
who will be used at the Department to help producers comply 
with provisions of the farm bill so they will be eligible for 
support in farm bill reforms that have occurred. There is 
concern, I'm told, that the President's budget request, for 
specific example, for the Farm Service Agency (FSA), is $12 
million below the 2015 enacted level. There is concern that we 
have received that this is not enough to carry out and help 
producers comply with farm bill provisions enacted by Congress 
and now must be implemented by producers and Department of 
Agriculture (USDA) workers around the country.
    My question is, would you please look at this level of 
funding and let us know whether this is really adequate? Is $12 
million below the enacted level for fiscal year 2015 for the 
Farm Service Agency to implement and help carry out provisions 
of the 2014 farm bill, there is concern that the FSA 
appropriation, if we gave you what you're asking for, is not 
enough to do the job. Would you look into that and tell us what 
your plans are?
    Secretary Vilsack. Mr. Chairman, we obviously would respect 
your request. I would say that one of the reasons why we are 
asking for a bit less is because there may not be quite as much 
of a need for technology money as in the past, because of the 
completion of the MIDAS effort. There is still an ongoing IT 
need, but perhaps not at the level that we have seen in the 
past.
    Secondly, I would say that the performance of our folks at 
FSA offices across the country in terms of the implementation 
of the farm bill has been, in my view, well done, given the 
fact that over 600,000 disaster payments have been made by 
those FSA offices, given the fact that nearly 90 percent of 
folks have made the decision to reallocate their base acres and 
adjust their yields. We are now close to 70 percent of farmers 
making the election of Agricultural Risk Coverage (ARC) and 
Price Loss Coverage (PLC), and we are not yet at the March 31 
deadline. There are series of other things that our FSA folks 
have been doing, so I am confident that we will be able to get 
the job done.
    But these budgets are challenging, and they are challenging 
in large part because of four areas that continue to increase, 
or several areas that continue to increase, from rental 
assistance, to fire suppression, to the WIC program, that 
places a great burden when we are trying to constrain our 
budget based on instructions from Congress.
    Senator Cochran. Thank you. Thank you, Mr. Chairman.
    Senator Moran. Mr. Chairman, thank you. Senator Tester.

                            ARC/PLC SIGNUPS

    Senator Tester. Well, thank you, Mr. Chairman, and I want 
to thank you, Mr. Secretary, for the job that you have done 
over 6 years now in this position. And as a person that is 
directly involved in production agriculture, I just want to 
thank you. Thank you for what you've done. I think you've done 
a great job in running the agency, and I think the people you 
have on the ground in the Farm Service Agency, in Montana at 
least, are doing a great job.
    The question I have to begin with is, can you tell me--you 
have got some deadlines coming up on PLC and ARC as of March 
31. Computer programming has always been a concern. If the 
programming is there, when the producer walks in it can meet 
the needs. Can you give us a quick update on where the 
programming is, if it's where it needs to be?
    Secretary Vilsack. Well, Senator, I think roughly 70 
percent of producers that we expect have to make an election 
have already made the election. I think they are finding that 
the times can be as quick as 12 minutes through the process, in 
part because of the technology changes that we have made. We 
had an initial glitch that arose in Kansas, which we have 
addressed. So I think we are okay.
    What we are concerned about, and producers have responded, 
is a crush at the end of the deadline. But given the fact that 
we're now at nearly 70 percent of signups in elections, I think 
we are going to be just fine in terms of being able to handle 
the volume.

                           RURAL OUTMIGRATION

    Senator Tester. Good. Good. Now, I want to go up to 30,000 
feet. I've been involved and run our farm for almost 40 years 
now and been involved in everything from set-asides to payment 
in-kind (PIK) payments to direct payments to countercyclical 
payments. Now we've got ARC, and we've got PLC. All these 
programs are passed by Congress, and you are asked to 
administrate them. You have been doing this job, as I've said, 
for over 6 years.
    And over the last 30 or 40 years, I have seen a mass exodus 
off the land. A mass exodus. The school where I went to school, 
165 kids, now has less than a third of that directly associated 
with consolidation and agriculture. We have seen consolidation 
in the marketplace, not as much competition as we would like. 
We are seeing consolidation in production agriculture, and I am 
a big supporter of family farms.
    And to be honest with you, I've been a big supporter of the 
farm bill, too. I mean, my grandfather would have told me that 
we would not be on the farm we have today if it wasn't for FDR 
and the farm program that was out there. We wouldn't have 
electricity if it wasn't for that Agriculture Department in the 
1930s, in the 1940s, and many of us would not have water 
without them. So it's done a lot of good things.
    You have been in this position for a while. You have seen 
the impacts on the ground, and I don't think Big Sandy, 
Montana, is any different than any small town in Iowa as far as 
depopulation and the mass exodus. As you look at this farm 
bill, is it helping keeping people in rural America, or is it 
encouraging more consolidation and people to move out of rural 
America?
    Secretary Vilsack. Senator, I think it's significant in 
terms of the assistance it can provide, because I think it 
supports a companion economy that can essentially combine with 
production agriculture and experts to focus on local and 
regional food systems and major investment in that opportunity 
for smaller sized operators to have a direct line with their 
consumer where they are able to negotiate a price. I think 
there is significant opportunity for expanded conservation and 
tying that into the development of ecosystem markets, which is 
another income. And then the bio economy, I think, is also--
were going to bring manufacturing back to rural areas. So I 
think this will help.
    I would say that there are two issues on the horizon that 
we need to be concerned about. One is this issue of the aging 
nature of farmers today in America and the issue of land 
tenure, who is going to own the land, who is going to operate 
the land, and what is their focus going to be in the next 10 to 
15 years, because I think we are going to have a significant 
turnover. And then finally, just the public relations effort to 
acquaint people in this country of the importance of rural 
America and the need for continued investment and continued 
focus. It's easy for many in America to forget about the 
importance of rural America.

                           LOCAL FOOD SYSTEMS

    Senator Tester. I agree with the local food system stuff 
and the conservation. I want to get in that in a second. But I 
also think that there is plenty of room for manipulation. 
Farming the farm bill isn't something that is not done. It is 
done regularly, and I'm not sure that's input. And by the way, 
that's not your problem, that's Congress's problem. You are 
there to administer it, we set the rules, and we thank you for 
that.
    Local food systems, can you tell me in your budget if there 
are additional dollars for local food systems, or has it been 
cut?
    Secretary Vilsack. There are additional resources as a 
result of the farm bill, and there's additional focus in rural 
development on making sure that we support local and regional 
food systems. Just yesterday, we announced $26 million 
available for----

                              CONSERVATION

    Senator Tester. Okay. Good. How about conservation?
    Secretary Vilsack. Conservation increases over what was 
spent last year, it's not as much as would have been 
appropriated if we had followed the farm bill, and I'm happy to 
talk about that if you wish.
    Senator Tester. Well, we'll put it forth to you in writing. 
But I think the conservation is important. I think it's all 
important. It just depends on how it can be manipulated, quite 
frankly. And I think that the conversation that we need to have 
in Congress is, is the farm bill really supporting family 
farms, or is it supporting agribusiness? Thank you, Mr. 
Secretary.
    Senator Moran. Senator Tester, thank you. Senator Collins.

                BIOENERGY PROGRAM FOR ADVANCED BIOFUELS

    Senator Collins. Thank you, Mr. Chairman. I think Senator 
Tester just raised an absolutely essential issue that does 
deserve our attention. And before I begin my questions, I also 
want to associate myself with the concerns expressed by Senator 
Merkley about the pollinators. They are very important to our 
wild blueberry crop in Maine and the health of those bees, 
which has been a real concern in the last few years.
    Mr. Secretary, I appreciate the attention that you have 
given to promoting the development of homegrown bio energy and 
wood products which are so important to rural communities 
across America but particularly to my State where the forest 
products industry is such a vital part of the economy.
    I have been hearing from wood pellet fuel manufacturers in 
Maine who have alerted me to concerns with an interim rule that 
your Department has issued for the bioenergy program for 
advanced biofuels authorized by section 9005 of the 2014 farm 
bill. And I believe that Virginia Manuel, who is one of your 
key people in Maine, has also passed onto the Department the 
same kinds of concerns that she is hearing.
    Wood pellets, which are recognized by USDA as advanced 
biofuels, represent a very efficient and use for material that 
otherwise is a waste byproduct. I'm told however, that the 
program is being implemented in a way that severely 
disadvantages solid based advanced biofuels, including wood 
pellets used in heating applications.
    USDA has imposed deep discounts on the payments to solid 
biofuel producers, it's like an 85-percent discount, and an 
overall payment cap on companies in this sector, which 
contrasts starkly with the payments being made to liquid 
advanced biofuel producers used in the transportation sector. 
And what I am told by the pellet manufacturers is that these 
discounts are so steep that it's such a small amount of money 
that it's barely worth participating.
    I don't understand what the rationale of the Department is 
in implementing the program in a way that is not fuel and 
technologically neutral. It seems to me that that should be the 
goal of the advanced biofuels program. I wondered if you could 
comment. I realize this is just an interim rule, and I am 
hoping that the Department will reconsider in issuing a final 
rule.
    Secretary Vilsack. Senator, when initial proposal was put 
forward, we received a lot of comments from the liquid biofuel 
industry indicating that their belief was that it disadvantaged 
their industry and advantaged, unfairly, the wood pellet 
industry. So there was an effort in the interim rule to try to 
respond to those comments. The wood pellet industry didn't 
initially respond to that first iteration.
    But I get your point, and I think you're absolutely correct 
that we ought to be looking for that sweet spot where we are 
not advantaging or disadvantaging any, but we are encouraging 
all. And we would be happy to continue to work with you and the 
folks in the wood pellet industry to find where that sweet spot 
is. I suspect that there will be some adjustments based on the 
concerns that you've expressed, but I think we are still 
working on trying to figure out exactly how to do it so that we 
get the right balance.
    Senator Collins. Thank you very much. I can assure you that 
the industry is organized and aware now and weighing in, and I 
will make sure they've officially communicated with you. I have 
a letter from the Maine Pellet Fuels Association that explains 
the problem very clearly, which I will share with you and ask 
unanimous consent be included in the record as well.
    Senator Moran. Without objection, so ordered.
    [The information follows:] 
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                        SCHOOL EQUIPMENT GRANTS

    Senator Collins. Mr. Chairman, I see that my time has 
virtually expired. I'll just raise one more issue very quickly 
and ask for response for the record.
    Nationwide, 88 percent of schools report that they need at 
least one piece of kitchen equipment and over half need more 
significant infrastructure improvements in order to comply with 
the Department's guidelines for the school lunch and school 
breakfast program. I'm pleased that you have announced a new 
round of funding for State competitive equipment grants.
    And I wanted you to know that Senator Heitkamp and I have 
introduced a bill that would actually authorize the program. I 
hope you will take a close look at our bill, with an eye 
towards endorsing it. And for the record, I would be interested 
in the impact that you're seeing as you award these grants that 
participate in the school lunch and breakfast programs. Thank 
you, Mr. Chairman.
    [The information follows:]

    Since 2009, USDA has provided $185 million in kitchen equipment 
funding to states and schools participating in the National School 
Lunch and School Breakfast Programs. USDA provides the funding to 
states, which then competitively award grants to school districts in 
order to purchase necessary equipment.
    State agencies participating in the National School Lunch and 
School Breakfast Programs were directed to target equipment assistance 
grants to low income school districts via a competitive grant process, 
giving priority to high need schools, including schools in underserved 
areas, schools with limited access to other resources, the age of 
current food service equipment, and where 50 percent or more of the 
enrolled students are eligible for free or reduced price meals. In 
addition, school districts were required to give priority to schools 
that did not receive previous equipment assistance grant awards.
    Based in large part on previous experience with equipment grants 
and on-going discussions with States and school districts, equipment 
funding has provided opportunities for purchasing new, energy efficient 
equipment facilitating the production of healthier, more attractive and 
tasty food for students. According to a report released by Kids' Safe 
and Healthful Foods Project (Pew Charitable Trusts/Robert Wood Johnson 
Foundation), most school districts in the United States (88 percent) 
need at least one additional piece of kitchen equipment to serve 
healthier school meals that meet the updated, science-based nutrition 
standards. Therefore, the President's Budget request for fiscal year 
2016 includes $35 million to provide needed funding for schools to 
upgrade equipment to help support nutritious meals, better ensure food 
safety, improve energy efficiency in the cafeteria, and expand 
participation in school nutrition programs.

    Senator Moran. Senator Collins, thank you very much. 
Senator Udall.

                          WATER INFRASTRACTURE

    Senator Udall. Thank you, Chairman Moran. And let me echo 
also, Secretary Vilsack, what was said about you. I think you 
have done an excellent job as Ag Secretary. I think sticking in 
there for 6 years really makes the difference as a cabinet 
secretary, because by doing that, you really learn the 
Department, and you learn the problems, and then you focus on 
them and work with us to come up with solutions.
    I also just want to echo what others have said about family 
farms. I think if you go back to the history of the farm bill, 
the idea was helping family farms, and I think we could do a 
lot more there. I see in my State a younger people going back 
and doing small farming, and if we could try to work with the 
farm bill to give them the support to stay there, I think that 
would be a welcome thing to happen.
    But let me ask you a little bit about water infrastructure, 
Secretary Vilsack. Come from a State where water infrastructure 
is a top priority in almost every community, it's critically 
important that we have strong support for water and wastewater 
disposal grant programs and the additional resources to provide 
technical assistance, which is the real issue, as you know in 
some communities that have no ability to do technical 
assistance, and make sure that those grants go to the 
communities with the most need.
    We currently have many low-income communities near the 
United States-Mexico border, known as colonias, that have an 
urgent need for water infrastructure, no way to pay for their 
water infrastructure needs, and are left to find the funding. 
And according to a recent GAO report, the cost of replacing 
critical infrastructure in rural communities like these is 
estimated to be more than $140 billion in coming decades.
    USDA is not the only agency that provides funding and 
technical assistance to rural communities for water 
infrastructure. Can you tell me about your interagency 
cooperation to ensure that these rural communities are being 
served with an all hands on deck effort by the Federal 
Government?
    Secretary Vilsack. Senator, I say, first of all, our budget 
would support 1,300 water projects in terms of wastewater and 
water treatment, and that would bring to a total of, I think, 
in excess of 8,000 projects that we funded in the time that 
I've been secretary. Secondly, we do work with sister agencies, 
Environmental Protection Agency (EPA) and others, to make sure 
that we coordinate our resources and we're using them most 
efficiently.
    And third, we are now encouraging the private sector to get 
engaged and involved in investing in these infrastructure 
projects. The challenge is that in order to get capital markets 
interested, we need to figure out how to bundle these projects. 
They're not interested in funding a $2 million or $3 million 
project in New Mexico, but they would be very interested in 
funding 100 projects around the country.
    And so we are now in the process of working with the 
Treasury Department and others to try to figure out how we 
could potentially bundle. We've had an assessment of our own 
portfolio to determine what the strengths and weaknesses of 
that would be. So we are trying to look at all areas to try to 
increase investment.
    Senator Udall. Secretary Vilsack, you believe the USDA has 
adequate resources to provide technical assistance to these 
communities with the most need?
    Secretary Vilsack. You asked me if I have adequate 
resources. I suppose I should answer no. But let me just say 
this. Whatever you all deem as appropriate, we will try to use 
in the most efficient and effective way to reach as many people 
as possible. That is why we're reaching out to the private 
sector. It's why we've also worked with CoBank to create a $10 
billion infrastructure fund so that we can figure out ways, if 
we can't say yes, we've got somebody else who can.
    I know that we can support 1,300 projects based on the 
budget that we submitted, and I think we have the adequate 
staff to be able to do that.

                          COLONIAS COMMUNITIES

    Senator Udall. Yeah, thank you. And we want to work with 
you on that. I know my time's running out, a quick question. We 
have two communities in southern New Mexico that are designated 
colonias, called Chaparral and Sunland Park. They have high 
poverty rates, limited public sector funding, and many miles 
from the New Mexico city of Las Cruces, but they are close to 
the city of El Paso, but they don't get any help.
    And so these communities need rural development funds for 
critical housing projects and infrastructure improvements. 
Would you work with me to ensure these two communities do not 
fall through the cracks by granting a waiver making them 
eligible for rural development assistance?
    Secretary Vilsack. At this point in time, not sure I have 
the permission from Congress to do that, but I would be happy 
to work with folks to try to create as much assistance and 
help. And if we can't provide help, then maybe we can steer 
them to an agency or entity that can.
    Senator Udall. Okay. Thank you very much. Appreciate it.
    Senator Moran. Senator Udall, thank you. Senator Daines.

                  PORT OF VANCOUVER GRAIN INSPECTIONS

    Senator Daines. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary, for being here this morning.
    Last summer, the USDA failed to conduct federally mandated 
grain inspections at the Port of Vancouver, the west coast's 
largest grain terminal, for several weeks to the safety 
concerns, the result of an ongoing labor dispute. And it was 
over a month that tens of millions of dollars of wheat harvest 
were put at risk.
    I remember driving in my pickup across Montana, stopping in 
Great Falls, our family roots are north of Great Falls, there 
in the Conrad area, they were wheat farmers, homesteaders, 
where you've got farmers coming off of their combines to meet 
with me, desperate, looking what's going on with the back up 
going on out at the port.
    And I don't think anybody disputed the need for the 
Secretary to have discretion in case of emergency, but it took 
the USDA 5 weeks, until after the safety concerns were 
resolved, to provide these following mitigations. There was a 
crosswalk removed, some Jersey barriers installed, backup power 
sources for surveillance video, additional parking spots, some 
temporary inspectors. And to me, it's unacceptable. It took 5 
weeks to produce the simple and low-cost mitigations, all the 
while the livelihoods of grain growers in Montana, across much 
of the West, were threatened.
    As you know, the United Grain Company and others offer to 
provide extensive mitigations during this disruption in 
inspections, including several of these USDA ultimately put 
forward. So considering UGC's willingness to address any safety 
concerns, could Montana grain have been exported sooner if 
USDA's analysis was completed more promptly?
    Secretary Vilsack. Senator, I would like an opportunity to 
delve more deeply into your question to be able to respond to 
it accurately. I was not under the impression that there was a 
significant delay. There was some uncertainty as to precisely 
who was going to inspect the grain and how safe the 
circumstances and conditions were.
    But I would be more than happy to take a look at this to 
determine whether or not it negatively impacted and affected 
your producers. Obviously, that would be the intent.
    Senator Daines. Well, I'd be happy to get our farmers 
together here and chat, because it was a great concern as we're 
looking at backing up here and not seeing an end as the port we 
shut down for 5 weeks. And back in November 2013, 8 months 
before the inspections were interrupted in July 2014, there 
were several members of Congress, including myself, who urged 
the Department to be prepared and have an executable plan in 
place that can be implemented immediately to ensure the 
inspections were not interrupted. And that was in direct 
reference to the labor dispute and the situation occurring at 
the port of Vancouver.
    So we were just curious why they were not these plans put 
in place when this disruption of inspections occurred.
    Secretary Vilsack. Well, I think there are plans that are 
in place. The challenge, though, is knowing precisely what is 
happening on the ground at that particular time, which is why 
there had to be a safety assessment to determine precisely what 
needed to be done to protect our people. And there are a 
variety of other options that were being looked at and examined 
relative to patrols and law enforcement involvement as well. So 
that's why I would like to be able to refresh my memory 
specifically as it relates to that particular circumstance.

                             SAFETY REPORTS

    Senator Daines. Sure. What I think would helpful is I know 
some of my Montana producers have expressed concerns that the 
Department simply played out the clock by not identifying the 
mitigations until after the labor dispute was resolved.
    And I guess in the interest of transparency and to help 
address these concerns, I'd like to put this to bed. I'd ask if 
you'd release the three safety reports that were conducted 
during the duration of the lockout, and am happy to do that in 
a non-public setting, if necessary. Would you be willing to 
release those reports?
    Secretary Vilsack. I don't know what the rules and 
regulations are relative to the safety reports, Senator, so I 
don't want to run afoul of any technical regulation, but I 
would be more than happy to have an opportunity to talk to my 
staff and see whether there is any objection. If there's not, 
I'd be more than happy to provide them to you.
    Senator Daines. I'd be happy to see those reports. And I 
think it's relevant. To me, it's relevant to grain growers 
across Montana that the USDA's decisions are transparent and 
held to account, and I would ask you to release those reports 
for review as soon as possible.
    Secretary Vilsack. If I can, Senator, I'd be glad to 
cooperate with you. I just do not want to make a commitment to 
you, because I don't know what the rules and regulations are 
relative to disclosing these reports, if there's some security 
reason or some reason we can't do it by statute or by 
regulation. But if there's not, I'm more than happy to get 
those to you.
    [The information follows:]

    USDA acknowledges the interest in having the safety reports 
available for the sake of transparency. For this reason, USDA would be 
glad to meet with Members of Congress to go through the reports. 
Unfortunately, we would not be able to make the safety reports 
publically available as those groups that wish to disrupt operations 
could use the information in the reports to contravene the measures 
outlined in the reports. To make the reports publically available would 
be inconsistent with Departmental Regulation 3440-2.
    Regarding the impact on producers by the lockout at the United 
Grain Corporation of Vancouver, Washington, the views of your 
constituents are very important to us. If you have producers that are 
willing to share contracts that were invalidated as a result of the 
shutdown or some demonstration of harm, we would welcome the 
information.

    Senator Daines. I think it's important to remember that 
we're here to serve the people, not the other way around. 
Having transparency in that process, particularly with the 
Montana farmers were gravely concerned about getting their 
products to port, I think it would help restore the trust, 
because I think it, frankly, has broken down. Mr. Chairman, out 
of time.
    Senator Moran. Senator Daines, thank you very much. Senator 
Blunt.

                        WATERS OF THE U.S. RULE

    Senator Blunt. Thank you, Chairman. And Secretary, it's 
great to see you here. And I want to join others who have said 
how much we appreciate the 6 years now that you've served in 
the job, and I continue to see the Department benefit, and I 
think Missouri and American agriculture benefit by your 
leadership.
    One of the things that I continue to hear about probably 
most from local officials, ag interests, is the EPA's proposed 
waters of the U.S. rulemaking, the interagency part of that 
involves you in a significant way. I've got about three things 
I want to get you here, I don't want this to become a 4-minute 
answer, but a sense of where you are on your comments to EPA as 
they've got that proposal out there and the impact that you 
think it might have on U.S. agriculture.
    Secretary Vilsack. Well, Senator, I think we have been very 
specific with EPA, expressing concerns about some of the 
definitions and the clarity of those definitions, especially as 
it relates to ephemeral streams, is it a river, is it a bank, 
is it a bed, is it a constant flow. And I think administrator 
McCarthy's comments yesterday to the National Farmers Union 
reflected an awareness of that concern when she acknowledged 
that perhaps things could've been done a little bit better in 
terms of rolling this out and that there are likely going to be 
changes based on what she has heard from us and from the 
countryside.

                                BIG DATA

    Senator Blunt. Well, keep talking, because I think the idea 
that somehow any water that can run into any water that can run 
into any water that could be navigable meets the standards of 
the Clean Water Act is a real problem.
    On another area that I wonder what you're doing on is the 
aircraft drone, aircraft system for drones. Many of our farmers 
think there is a lot of potential here. They want to be sure, 
of course, that the drones that give them advantages they 
wouldn't otherwise have don't become aerial ways to look at 
things on a farm that the government would otherwise have to go 
to court and asked to come and see.
    What's your advice on how these drones can best be used and 
how that rulemaking should go about?
    Secretary Vilsack. Well, I think the Federal Communications 
Commission (FCC) is doing a pretty good job of trying to figure 
out precisely where the sweet spot is relative to getting the 
information and maintaining the secrecy or privacy of the 
information. Frankly, our focus has been on sort of a larger 
piece, which the drone is part of, which is this whole issue of 
big data, where we been working with the businesses, and the 
companies, and the farm organizations, and the Farm Bureau in 
particular, to make sure that there is an understanding of the 
need for tight firewalls to ensure that someone's information 
is not inappropriately used or inappropriately disclosed.
    The big data is important for us, because it really does 
create the opportunity for us to do a better job of research, a 
better job of understanding the condition of soil, the better 
job of using inputs more efficiently and effectively, all of 
which will help the bottom line for producers. But I know that 
producers are a bit concerned about whether or not this is 
going to be used to regulate them. I don't think that's the 
intent.

                             MIDAS PROGRAM

    Senator Blunt. Well, I would hope not, and I hope you 
continue to make that case on the privacy issues. Certainly, if 
any endeavor leads to someone's sense of individualism, in our 
country, it's always been American agriculture, and the 
decision of what you do and how you do it is better informed by 
lots of information, but you and I both know that farmers and 
farm families want that information to be tightly held. And it 
can be used in a good way, and you continue to advocate for 
that and understand where those privacy walls are very 
important.
    On another topic, Secretary, we talked several times over 
the last 2 years about where the Department was with the MIDAS 
program, which has been discouraging for me and probably for 
you. I think the original estimate was it would cost about $305 
million and be completed by March of last year. Last count I 
heard, we were over $400 million. And the GAO recently said 
that it is on the high-risk list of programs as to whether we 
get there or not. Where do you think we are on this program?
    Secretary Vilsack. We're in a better place today than we 
were when this began. Unfortunately, there was not a consensus 
in the offices in Kansas City and the offices in DC in terms of 
where the focus should be, whether should it be on farm 
records, whether it should be on integrity. There was a 
mismatch of vision. I think there was a lack of a project 
manager.
    We now have a--MIDAS is basically now completed. The farm 
records is in place. The integrity, business integrity, stuff 
is in place. We have a project manager. We incrementally tested 
the business integrity part of it effectively. We are now in 
the process of developing, for this year, the acreage 
reporting, and we are going to do this in a very systematic, 
focused way. There's a project manager for that job. It's very 
tightly defined.
    The question will be whether or not we use existing 
software and hardware, or whether we are required to do 
something beyond that, but we are going to make an informed 
decision. We are not going to jump into it. And when we 
implement, we're going to implement it in stages so that we are 
confident that it's actually going to do the job it is intended 
to do.
    So I think we're a much better place, but I will be the 
first to admit that we didn't do as good a job on this as we 
should have.

                      ELECTRONIC ACCESS TO RECORDS

    Senator Blunt. Thirty more seconds, Mr. Chairman. On this 
topic, last year at the same hearing you said that you thought 
that, by sometime in 2015, farmers would be able to be at their 
kitchen table and look at records and FSA programs. I assume we 
no longer think that's possible.
    Secretary Vilsack. Well, it's possible, but I don't want to 
over commit. I think that we want to do this systematically and 
thoughtfully. We are working on two separate issues here. We 
are working on the farm service piece of this. We are also 
working on the Natural Resources Conservation Service (NRCS). 
And what we've discovered in our NRCS efforts is that we can 
use that as a gateway for the farm service that will 
potentially save money and save time, so we are in the process 
of interfacing those two efforts.
    We're going to get there, Senator. And I think we've 
already created a much more convenient effort, and that's one 
of the reasons why we been able to move through the farm bill 
implementation as quickly as we have, because farmers can go 
into one office, access all records of all land that they own, 
regardless of where it's located. That's a significant 
convenience. And we're also able to access records quickly so 
we're going to significantly reduce mistakes, and it has really 
streamlined the process.
    So there has been benefit, and this year will be another 
forward, if you will.
    Senator Blunt. Unless we get another question in here 
today, will have a couple of more questions on that for the 
record. Thank you, Mr. Chairman.

                            AVIAN INFLUENZA

    Senator Moran. Mr. Chairman, thank you. I think our 
intention is short in the second set of questions, try to be 
done by the end of the first vote, and then we wouldn't come 
back.
    Let me ask a question related to the avian influenza. It 
has been detected. It is in several States, including some 
represented here on this panel today. I'd like to hear what the 
Department is doing to combat avian influenza and its spread. 
It appears to me that the only commercial detection has been in 
turkey flocks, but we have countries who are banning chicken, 
poultry, chicken products as well as turkey, and is there 
something that can be done to narrow the scope of any trade 
disruption?
    And then Dr. Johansson might be able to answer this 
question in response. I wanted to give him a chance, in case 
it's important for you to be able to say that you actually 
testified before a Senate committee. But a K-State agricultural 
economist, Dr. Glynn Tonsor, indicated that this may have 
consequences for other livestock producers and pricing within 
the livestock sector. As people make decisions, exports 
decline, prices change, is there something for the beef side 
that has a consequence to avian flu as well?
    Secretary Vilsack. Senator, this is a very complicated set 
of circumstances here. Fifty-eight incidences have occurred. I 
think it's in 11 or 12 States in several of the flyways. It is 
in both chicken and turkey. It is in both commercial 
enterprises and sort of individual farming operations.
    The Animal and Plant Health Inspection Service (APHIS) has 
a responsibility to work with States to identify, as quickly as 
possible, the fact that there is AI and what type of AI it is, 
we're seeing several different types, and then work with the 
States to impact and affect biological controls to try to 
contain the spread of this within a flock, within a particular 
area, and then to indemnify the producers for any loss that 
they've incurred. And that's ongoing today. We are going to go 
to the resources that are budgeted for that, and if necessary, 
if we need additional resources, we have the CCC that we can 
trigger.
    As far as it relates to exports, there are three 
classifications of countries. There are 11 or 12 countries, I 
think, that have basically banned all poultry, regardless of 
where it comes from, in the United States. There are somewhere 
in the neighborhood of 33, 34 countries that have essentially 
regionalized their bans based on where this is actually 
occurred, which is more consistent with the World Organization 
for Animal Health (OIE) guidelines. And there are a variety of 
States and countries that don't do a lot of business with us 
that have not instituted a ban of any kind.
    We've focused our attention on those countries that have 
created an all ban to try to encourage them to take a more 
reasoned approach and look at this from a regional perspective. 
That obviously requires them to be reasonable, which, in some 
cases, is not easy to attain. But we are educating them through 
communication with their embassies, communication with the ag 
secretaries and commissioners and my counterparts, if you will, 
letters, efforts and phone calls, some of which, frankly, have 
not--some phone calls have actually been refused, which is 
unfortunate.
    But we are trying to put folks on notice that the most 
appropriate way is to regionalize this. This represents roughly 
14 percent or so of exports at this point in time, but its 
impact on markets, I think, Dr. Johansson can elaborate, but we 
are focused on this. There is no cure for this. It's 
essentially the identification, containment, and 
indemnification, and trying to limit the impact from an export 
basis.

                             OIE STANDARDS

    Senator Moran. Mr. Secretary, is a clear that those 
countries in the first category, the ones you're now dealing 
with, is a clear that they are violating the OIE standards?
    Secretary Vilsack. It is clear to us that they--yes, it's 
clear to us that they ought to be regionalizing their bans and 
not doing a blanket ban, but this is not unusual. This happens 
from time to time. We have been working with several of our 
trading partners for an extended period of time on bans that 
are still in place from incidents that occurred many, many, 
many years ago. And in some cases, they've banned States that 
aren't even connected in any way, shape, or form to an AI 
incident.

                      DISRUPTION IN POULTRY TRADE

    Senator Moran. Dr. Johansson, to my knowledge, the only 
time I've ever been rude, and this was unintentional, was to 
Joe Glauber, your predecessor, when he was a witness and I was 
a House member, and so I want to demonstrate that I can get 
along with the ag economist at USDA.
    Dr. Johansson. Well, that's very kind of you. I'm sure that 
Dr. Glauber would remember that exchange fondly, as you do.
    Dr. Tonsor is, I think, referring to the fact that, if we 
do see significant disruption in poultry trade that that would 
potentially lead to lower price poultry products in the United 
States and perhaps consumer, which we've seen this trend 
occurring over time, the movement toward increasing consumption 
of poultry in the United States relative to beef, and that's 
due to a number of factors. Beef prices right now are extremely 
high. But as the Secretary pointed out, we're working with our 
trading partners right now, and right at this point in time, 
that doesn't seem to be an issue. We seem to be able to ensure 
access of our poultry products, turkey and chicken, to our 
external trading partners for the most part.
    And if some countries do make that more difficult, then we 
have other outlets for those goods. So right now, I wouldn't 
expect there to be a significant impact on the beef sector from 
this current situation with the high path avian influenza.
    Senator Moran. That's good to hear. And Mr. Secretary, 
please let us know how we can help, either resources or 
encouraging countries to comply with those OIE standards. 
Senator Merkley.

                       SELF-HELP HOUSING PROGRAM

    Senator Merkley. Well, thank you very much. I'm going to 
try to quickly touch on five topics in 5 minutes. Self-help 
housing program that involves sweat equity housing, empowerment 
through homeownership, pretty popular program. You suggested 
cutting it from $27 million to $10 million. Why?
    Secretary Vilsack. Help us fix the rental assistance 
account, Senator. We basically are faced by a dilemma created 
by Congress. When rental assistance first came into being, you 
all funded these rental units for the life of the unit. Then 
budget constraints required you to lessen the amount of time, 
so now we are in the process of having 20-, 15-, 10-year 
projects coming on line, having to again finance them, which 
puts a constraint on the budget. So you've got a trade off.
    If we solve the rental assistance problem, then that would 
free up resources in rural development to do self-help. It's 
not an indication of the lack of importance of that program. 
It's just budget numbers.

           INNOVATION INSTITUTE FOR CELLULOSIC NANO-MATERIALS

    Senator Merkley. Switching gears, I want to much follow-up 
here, given the shortage of time. But you proposed funding in 
innovation institute in cellulosic nano-materials. Anything 
involving wood, cellulose, is of interest in my State. The 
conversation is about potential materials that are flexible and 
stronger than Kevlar. A comment?
    Secretary Vilsack. We do research at the forest product 
lab, but this would allow us to create an entity that would not 
be run by the Department of Agriculture, but would be 
implemented by the Department of Agriculture, modeled after a 
similar innovations institute in Berkeley on energy.
    We think nanotechnology creates enormous opportunities for 
us, not only in the wood area but in the plant area as well, to 
create new manufacturing jobs and to create a new bio economy 
within rural America. We'd like to have this institute set up 
so that, in turn, we could have greater and more quick 
technology transfer, getting ideas.
    And what these institutes basically do is they help small 
businesses that could otherwise not have the capital to ramp up 
to be able to ramp up more quickly, which means it gets the 
product into the commerce more quickly, creates jobs more 
quickly.

                         SUMMER FEEDING PROGRAM

    Senator Merkley. I visited that laboratory in Berkeley a 
number of years ago. Fascinating work that's being done there.
    Turning to summer lunch programs for children. Last year, 
the subcommittee provided $60 million for that summer program. 
Can you update us on how that's working in terms of assistance 
for child nutrition?
    Secretary Vilsack. Certainly an important component of our 
summer feeding program. We've increased the number of sites, 
sponsors, and meals, 23 million more meals being served across 
the program. And one of the strategies is to provide additional 
resources to families that may not have the access to a 
congregate site. We did this in 10 States. Eight of the 10 are 
re-upping. We think that we learned from that that in remote 
rural areas in particular, this is an effective way to expand 
our summer feeding effort.
    The reality is that we've got 21 million kids in free and 
reduced lunch in the country, and we were able to feed 3.3 
million in our summer feeding program, so there's still quite a 
delta there, and this is the way we think that can allow us 
greater tools and more flexibility to reach more kids.

                        PUBLIC LAW 480, TITLE I

    Senator Merkley. Thank you. Public Law 480, title I, there 
hasn't been any new loans since 2006. In the long-term, a lot 
of these loans are eventually forgiven. We're still 
administrating the old loans. Is there an effort to analyze the 
255 outstanding loans and determine whether some of them should 
just be forgiven and reduce administrative overhead?
    Secretary Vilsack. It's a good point, Senator, and I 
appreciate your raising the question. I would say that we are 
collecting somewhere between $250 million to $300 million a 
year, which is one of the reasons why we need some 
administrative resources.
    But I think your point is well taken. And by virtue of this 
question, I'm going to go back and ask. We looked at our 
portfolio in other areas. This is a good question to ask.

                      MOBILE SLAUGHTER FACILITIES

    Senator Merkley. And finally, let me turn to mobile 
slaughter facilities. And many of my rural counties, I hear a 
lot about the difficulty of shipping livestock of various types 
to a slaughter facility. Can we get your cooperation in 
exploring the potential expansion and support for mobile 
slaughter facilities?
    Secretary Vilsack. Absolutely. We're very consistently 
supportive of mobile slaughter units as a vehicle for 
increasing local and regional food systems.
    Senator Merkley. We have 20 seconds left. Thank you.
    Senator Moran. Well done, Senator Merkley. Senator Cochran.

                           YAZOO RIVER BASIN

    Senator Cochran. Mr. Chairman, thank you very much. Mr. 
Secretary, we appreciate your leadership, and we know you've 
got a lot of jurisdictional area that's affected by the 
appropriations bill that this subcommittee has an opportunity 
to influence. And specific programs that are in need of funding 
that somehow, year in and year out, come up for review, and 
people say, well, if we just had some more money. Well, the 
good news is, that we got some more money.
    We have money that is available and can be spent and is 
authorized for funding in the Yazoo River basin in Mississippi. 
And I bring this specific area of the State to the attention of 
the subcommittee and the Secretary because it is a fertile area 
for agriculture. The Yazoo River basin is the largest drainage 
basin in Mississippi. It covers more than 13,000 square miles 
and 30 counties. So it is a big deal.
    And the management and conservation and thoughtful use of 
these lands in this Yazoo River basin are important to our 
national economy and certainly to the economies in the States 
of the lower Yazoo River basin. So I invite your attention to 
opportunities to use funding that, and heaven help us, is 
earmarked, hello, for certain areas of the country. This is one 
of those high-priority areas, and it would be almost sinful not 
to provide funding for this particularly stressed area, which 
has not been supported by appropriated dollars through specific 
designation.
    So I hope that the subcommittee will support providing some 
suggestions and directions for how these funds could be used in 
the Yazoo River basin. Our State has $45 million in unfunded 
authorized water projects under this program, and I hope that 
we can see the Department looking into the situation, and if 
possible, carrying out the intentions as expressed by the 
Congress with respect to appropriated dollars for these 
activities.
    Senator Moran. Mr. Secretary, before you respond, the vote 
has been called. We're going to try to finish all questions 
before the vote and not come back. So if everyone can be very 
brief between now and the next 5, 6, 7 minutes, that would be a 
great experience. Mr. Secretary.
    Secretary Vilsack. Fifteen seconds. Mr. Chairman, 
basically, I would suggest two things. One, the Regional 
Conservation Partnership Program is a great opportunity for 
that area to apply for resources. And secondly, this budget 
does contain $200 million in watershed resources. Obviously, we 
work to figure out if that's appropriated by Congress to spend 
it wisely.
    Senator Cochran. Thank you very much, Mr. Secretary.
    Senator Moran. Mr. Chairman, thank you very much. The 
Senator from North Dakota, Senator Blunt has agreed to allow 
his time to go to you, and so you owe him an expression of 
appreciation, but don't do it right now, we don't have time.

                         SCHOOL MEAL STANDARDS

    Senator Hoeven. I'd like to thank the outstanding Senator 
from Missouri, and also you, Mr. Chairman. Thanks for being 
here, Mr. Secretary.
    First question goes to the nutrition standards. We're going 
to be reauthorizing the dietary guidelines. On sodium, schools 
are having--you know, I mean, they're meeting the target one, 
and they feel that was a reduction, that it works for them. But 
as you know, we included in the ag approps legislation last 
year not going to the target two and three until additional 
study has been done. Has additional study been done, and what's 
your view on that?
    Secretary Vilsack. There have been additional studies, and 
I think there is a game plan that provides for an extended 
period of time before phase two and phase 3 would be 
implemented.
    Senator Hoeven. So I have introduced, or I will be 
introducing legislation that addresses the sodium piece, and 
I'd be willing to work with you on it. I'm trying to come up 
with something that the School Nutrition Association supports 
based on what works for them and also something that you may 
feel works as well. But they are concerned about going to that 
target two level and being able to meet it.
    Secretary Vilsack. We obviously want to provide flexibility 
where it's appropriate, Senator.
    Senator Hoeven. Same thing on the whole grains requirement. 
The 100-percent requirement is problematic for them with some 
products and then some flexibility and discretion there. So 
again, my legislation will address both, but would certainly be 
willing to have a dialogue on what we can do in terms of 
working with you on that.
    Secretary Vilsack. Well, we had provided flexibility on 
whole grain, understanding the challenges of the food 
processing industry. And again, we've been willing to provide 
flexibility where we think it's appropriate. We are concerned, 
Senator, about taking a step back. We don't want to do that. We 
think we're on the right track. We think we are headed in the 
right direction. We just don't want to take a step back.
    Senator Hoeven. Well, and I understand that. But we are 
going to be doing reauthorization this year, so we are going 
to, obviously, be reauthorizing the program. It's a logical 
time to look at that and then determine what certainty we can 
give the schools in terms of handling those two issues with 
your recognition that they need some help on both of them.
    Is there a point person in your shop we should be talking 
to you on this issue?
    Secretary Vilsack. Me.

                             BUDGET SAVINGS

    Senator Hoeven. Great. Thank you. One other question. Where 
do you see--as we work to the budget process and have to find 
some savings, give me your thoughts on where we do that.
    Secretary Vilsack. Well, actually, my thought was that you 
need to be careful about the application of sequester on both 
the defense and nondefense segments, so I am not sure on the 
right person to ask that question.
    I would point out, Senator, that this budget that we have 
submitted is less than the first full budget that we submitted 
in fiscal year 2010 and not too far from where we were in 2009. 
We, I think, have done a good job at USDA of trying to manage 
on limited resources without a lot of growth in our budget.
    Secondly, we've got those four line items, several of which 
are going to increase. Fire suppression, that's got to get 
fixed. That's got to get fixed. Rental assistance has got to 
get fixed. Otherwise we're going to continue to see an erosion 
of all the other programs that you folks think are important 
and that we think are important.
    Senator Hoeven. Well, and I feel like we've worked hard to 
find savings in the farm bill that we passed last year and that 
ag has stepped up and been part of reforms and savings. And I 
think we'll be called on to do more, but I also want to note 
that we've worked hard to find real savings from agriculture 
and still produce a good farm bill and have farmers and 
ranchers out there that are producing the highest quality, 
lowest cost food supply in the world. Thank you, Mr. Chairman.
    Senator Moran. Thank you very much, Senator Hoeven. Mr. 
Secretary, thank you. You were saved by the bell, in a sense. 
We, I think, have had a satisfactory opportunity to ask you 
questions. I hope this hearing is not just a benefit to us. I 
hope it's a benefit to you to see what we are hearing and 
thinking from across the country, what are farmers, ranchers, 
or consumers are telling us. And we appreciate your testimony 
and your service. I think it's been a good hearing.

                     ADDITIONAL COMMITTEE QUESTIONS

    For members of the subcommittee, any additional questions 
that you'd like to submit for the record should be turned into 
the subcommittee staff within 1 week, which is Tuesday, March 
24. We appreciated if the Department could respond from USDA--a 
response from USDA within 4 weeks from that date.
    And Mr. Secretary, on the two issues you mentioned, fire 
suppression and housing, if there's something that we need to 
know to help solve that problem, please make certain we do, or 
other issues that need our attention.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
               Questions Submitted by Senator Jerry Moran
                                  cuba
    Question. Secretary Vilsack, I have been an advocate of lifting the 
economic embargo against Cuba for the past 15 years, and I am 
encouraged by the newfound momentum since the President's announcement 
in December. I recognize there is still a lot to be done to restore 
diplomatic relations, but the potential for US agricultural exports to 
Cuba is undeniably significant. U.S. wheat farmers believe they can 
supply two-thirds of the wheat Cuba is already importing from other 
countries.
    Has USDA begun work to identify potential market access?
    Answer. Although USDA does not have an on-the-ground presence in 
Cuba to assess the market firsthand, USDA's Foreign Agricultural 
Service monitors trade data on Cuba's agricultural imports that 
provides insight into the potential of the Cuban market.
    If the embargo is removed, the United States could be poised to 
become a major agricultural trading partner with Cuba. Cuba depends on 
imports to feed its 11 million citizens. According to the World Food 
Program, Cuba imports about 80 percent of its food, which means the 
potential demand for U.S. products is significant. The United States 
has potentially huge advantages in exporting to Cuba, including lower 
shipping costs and transit times, especially compared to our current 
top competitors--Brazil and Europe.
    In fiscal year (FY) 2008, U.S. agricultural exports to Cuba reached 
$658 million. However, by the end of last fiscal year, they had fallen 
to $300 million. At the same time, global agricultural exports to Cuba 
have doubled over the past decade to approximately $2 billion. In 
fiscal year 2014, the largest U.S. agricultural export to Cuba was 
poultry, followed by soybean meal, soybeans, and corn.
    U.S. agricultural exporters can capture the market in Cuba, but 
there are factors to be considered. Cuba is a country with limited 
foreign exchange. The United States is also behind foreign competitors 
in market development. USDA remains prohibited from providing export 
assistance and credit or guarantees for exports to Cuba. These 
restrictions in law apply to USDA's successful market development 
programs like the Market Access Program and the Foreign Market 
Development program. Another factor is Cuba's import policy requiring 
all U.S. agricultural imports be channeled through one state 
corporation, called Alimport.
    Question. Since the U.S. government has had no formal relationship 
with Cuba for several decades, is there a lack of agricultural data 
available to accurately assess their markets?
    Answer. Cuba last reported its trade data to the United Nations in 
2006. In order to conduct more current trade analysis on the Cuban 
market USDA relies on export data to Cuba as reported by other 
countries to assess the dynamics of Cuba's import market. While direct 
and consistent import data from Cuba would be a preferable option, the 
use of export data to Cuba serves as good proxy to understand how trade 
patterns are changing in the country. However, there is very limited 
information available regarding Cuba's production and consumption 
trends. Elsewhere, FAS utilizes its network of overseas offices coupled 
with on-site assessments by Washington-based staff to gather 
comprehensive market intelligence. This type of comprehensive 
assessment has not been an option in Cuba. As the United States begins 
the process of re-establishing diplomatic relations with Cuba, 
including the opening of an Embassy, USDA is prepared with the 
expertise to provide on-the-ground assessments.
                            it modernization
    Question. Secretary Vilsack, one issue that has been raised 
repeatedly by this subcommittee in recent years is the IT modernization 
effort at the Farm Service Agency. Despite significant investments by 
Congress spanning several fiscal years, the MIDAS project as we 
understand it has been abandoned. Your budget indicates that FSA is 
conducting a Business Strategy and IT Strategy to establish new 
objectives to seemingly replace MIDAS. What is the status of those 
efforts?
    Answer. MIDAS has not been abandoned nor are there any plans to 
replace MIDAS. MIDAS remains at the core of the FSA IT modernization 
strategy. With any IT modernization effort there comes a time when the 
project must transition from the ``development'' stage to the 
``sustainment'' stage. With the successful delivery of Product Master, 
Farm Records, and Business Partner, the MIDAS system has moved into 
sustainment. During sustainment MIDAS will receive incremental 
improvements to the deployed functionality and, in order to keep it 
operational for field office staff, ongoing maintenance of processes 
and technical infrastructure, including defect resolution and minor 
adjustments to maintain continuity with program business rules. 
Following the Business Partner release in December 2014, the U.S. 
Department of Agriculture (USDA) Executive Information Technology 
Investment Review Board recommended that additional functionality, such 
as the ability of agricultural producers to interact with FSA online, 
be developed separately in smaller, more modular, investments that 
reflect the current vision for FSA's role and opportunities to improve 
service, including provisions of the 2014 Farm Bill.
    The FSA Farm Programs IT Plan for Expenditure that will be 
submitted in the coming weeks will provide details on the Farm Programs 
IT investments for fiscal year 2015. FSA Executive Leadership, in 
coordination with the Office of the Chief Information Officer, 
continues to leverage the Business Strategy, IT Strategy, and Roadmap 
to refine IT investment plans for fiscal year 2016. A non-USDA 
independent third-party will be engaged to conduct an analysis of the 
enterprise solution to determine if the current enterprise solution 
provides the necessary functionality and identify a proposed strategic 
direction for modernizing and ensuring the most cost-effective means 
for delivery of IT Services in FSA's dynamic program environment. The 
results of this third-party analysis will be used to guide the 
development of additional capabilities for the current MIDAS system.
    Question. While these IT challenges are ongoing for FSA, producers 
will soon be enrolling in the new Farm Bill commodity programs. Can the 
system currently in place handle the workload in a timely manner?
    Answer. Following the deployment of MIDAS Business Partner 
capabilities in December 2014, one performance-related issue was 
reported and resolved. USDA recognizes modernization of the current 
national telecommunications architecture is required to further improve 
performance and enable efficient delivery of program services to 
farmers, land owners, and agricultural partners. In March 2015, the 
Service Center Agencies (FSA, RD, and NRCS) approved the USDA Client 
Technology Services plan to upgrade 1,035 offices. These sites were 
determined as most critical based upon bandwidth saturation thresholds 
coupled with site populations and customer traffic demands. In fiscal 
year 2015, 300 sites are being upgraded with an additional 735 Service 
Center Agency sites planned in fiscal year 2016. Sites that have been 
upgraded will be consistently monitored to ensure that the initial 
upgrade is sufficient to support the customer's changing application 
and data requirements. Sites not upgraded in the initial phase will be 
evaluated on a continuous basis to determine if saturation thresholds 
have changed based on new demands.
    Question. Can producers rely on the security of the system to 
protect their financial information?
    Answer. Producers can rely on the security of the system to protect 
their financial information. The USDA and FSA provides several layers 
of information security by implementing physical, network/server, 
application and business process security controls. Security controls 
are compliant with the Office of Management and Budget, the National 
Institute of Standards and Technology and USDA requirements for systems 
that process individual's personal and financial information.
     implementation of new methods of poultry slaughter inspection
    Question. Where exactly do you stand now regarding implementation 
of the modernized poultry slaughter program? Will implementation be 
completed during fiscal year 2016?
    Answer. The implementation of the New Poultry Inspection System 
(NPIS) is moving forward as expected with 40-50 eligible plants 
expressing an interest in converting to the new system. Agency 
officials and union representatives are in ongoing negotiations at the 
present time. Full implementation is expected to be completed over a 5 
year period.
    Question. I understand that adopting these new methods is at the 
discretion of the plants. What is the level of interest in 
participation that you are seeing from the industry?
    Answer. The level of interest we are seeing from plants is what we 
had predicted. At present, FSIS has between 40-50 eligible plants 
inquiring about converting to NPIS.
                        biotech review in aphis
    Question. One issue that has been raised by this Subcommittee is 
the backlog of applications for biotech products. I am pleased at the 
Department's efforts to clear out the backlog and hope those 
applications can be cleared by the end of this fiscal year. Moving 
forward, how can we further improve and shorten the process to put us 
on an even playing field with competing countries and give companies 
regulatory certainty?
    Answer. Since 2012, USDA identified and implemented innovative ways 
to improve the biotechnology petition review process. The goal of these 
efforts was to significantly decrease the length and variability of the 
process without compromising the quality of the analysis that supports 
our decisions. Results of the 2012 process improvement are substantial. 
For example, published petitions are currently taking, on average, 1.8 
years, a time savings of approximately 1.2 years over the petitions 
that did not require an environmental impact statement and were 
published between 2010 and 2012. USDA ensures that its environmental 
analysis and plant pest risk analysis documents are thorough, accurate, 
and can withstand legal challenges. The process improvement analysis 
revealed a minimum estimated timeframe of 13-15 months required to 
conduct quality analysis and solicit public input to support regulatory 
decisions and protect plant health. These targeted timeframes are 
comparable to the average time it takes for product deregulation in 
other countries around the world. USDA appreciates the efforts of 
Congress to provide the necessary resources to USDA's biotechnology 
program and its continuing efforts to oversee certain genetically 
engineered organisms that might pose a risk to plant health. The 
President's fiscal year 2016 budget proposal for biotechnology 
regulatory services will provide sufficient funding to meet the new 
process timelines.
                          rice entering china
    Question. The U.S. Animal and Plant Health Inspection Service 
(APHIS) has been working with the China Administration of Quality 
Supervision, Inspection and Quarantine (AQSIQ) since early 2007 to 
develop the mechanism to allow US rice entry into the China market. The 
current negotiation centers on a phytosanitary protocol, which sets out 
the technical requirements for US rice entering China. It is our 
understanding that the last official communication on the draft 
protocol was spring of 2014 when APHIS provided a response to the 
Chinese latest offer. In the last three scheduled bilateral meetings 
between APHIS and AQSIQ, one was canceled by the Chinese without 
explanation and at the other two AQSIQ did not have present the 
appropriate parties to negotiate on rice. It appears as though the 
Chinese are dragging their feet and not negotiating in good faith on 
this issue.
    Since APHIS cannot compel their Chinese counterparts to negotiate, 
what more is USDA prepared to do to move this issue to an amicable 
solution?
    Answer. To date, China has not authorized imports of U.S.-origin 
milled rice, but we understand that China is an important potential 
market for United States rice exports. The issue has been addressed in 
bilateral meetings with both Beijing-based and Washington-based USDA 
personnel. Since the spring of 2014, there were several letter 
exchanges with China's General Administration of Quality Supervision, 
Inspection and Quarantine (AQSIQ). The latest letter from AQSIQ, 
reworked the original language in the proposed draft protocol, but did 
not address a key USDA objection on the requirement of pest-free 
production sites. USDA shared the information with United States 
industry and rice producers, and together we are working to develop a 
solid technical response. From the USDA perspective, we expect to 
participate in on-going negotiations with China in fiscal year 2016, 
about the AQSIQ rice storage site requirement to more accurately 
reflect current pest management measures in U.S. rice storage 
facilities.
                                 ______
                                 
             Question Submitted by Senator Susan M. Collins
                              potato wart
    Question. Potato wart is a serious, internationally-quarantined 
disease of cultivated potato that is not known to be present in the 
United States. The fungus is present, however, in Prince Edward Island, 
Canada, a region that is approved to export potatoes to the United 
States, which is the subject of significant concern to potato growers 
in Maine.
    With few effective measures to control the fungus, potato wart is 
readily transmitted to new areas in a variety of ways: by tubers grown 
in infected soil, by tools used in potato cultivation, by footwear, and 
by manure from animals that have fed on infested tubers. Even more 
problematic is that infested tubers do not always show outward signs of 
infection.
    Effectively controlling potato wart is possible primarily by 
appropriate production and handling practices, as well as statutory 
measures.
    I commend APHIS for acting quickly in issuing the current Federal 
Order with respect to potato wart. I am concerned, however, that it 
does not address soil, machinery, or potato movement from PEI to other 
areas in Canada. Unrestricted movement of these materials from PEI to 
other potato producing areas of Canada is troubling because it risks 
spreading disease beyond PEI, including into the United States. This 
risk comes from the movement of these materials.
    Will you evaluate the current Federal Order to help ensure that it 
is effectively protecting the potato industry in the United States, 
including in Maine, from being contaminated by this fungus that has the 
potential to devastate our industry?
    Answer. I recognize your concern about preventing the introduction 
of potato wart into the United States. USDA has worked closely with the 
U.S. potato industry, States, and our Canadian counterparts to put in 
place a scientifically-based policy that allows for the safe 
importation of potatoes from Canada. As a result of the recent new 
detections of potato wart on Prince Edward Island (PEI), the Animal and 
Plant Health Inspection Service (APHIS) issued a Federal Order 
strengthening our import requirements for potatoes from that province. 
The revised requirements apply to potatoes for consumption, processing, 
and seed from fields outside the regulated area, and were agreed upon 
by the U.S. Potato industry. The Canadian Food Inspection Agency (CFIA) 
quarantines infested fields and fields associated with them and 
conducts measures (monitoring, surveillance, and movement restrictions 
for potatoes as well as soil) to prevent further spread of Potato Wart 
within and from PEI to other parts of Canada or in exports. The 
measures also include prohibition of exports of potatoes from regulated 
fields to the United States and require that machinery used on 
regulated fields be cleaned and disinfected according to CFIA 
regulations before it can be moved. Under the Federal Order, potatoes 
from non-regulated areas of PEI must meet requirements to mitigate the 
risk of potato wart, such as washing to remove soil, sprouting 
inhibition, and phytosanitary inspection. Seed potatoes must originate 
from a field that has been tested and found free of the fungus that 
causes potato wart within 1 year of harvest. The Federal Order was put 
in place as an interim measure in response to concerns about possible 
risks from areas of PEI not regulated by Canada. APHIS and CFIA have 
committed to further technical discussions to review the current 
regulatory approach and if necessary, to make changes to the regulatory 
framework or other approaches to prevent the introduction of the 
disease into the United States while minimizing negative impacts on 
trade. Importation of PEI potatoes for non-propagative uses and for 
seed plays a significant role within the U.S. economy. USDA has worked 
to preserve this important import trade while protecting the U.S. 
industry from the risk of potato wart.
                                 ______
                                 
              Questions Submitted by Senator Steve Daines
                 consolidation of food safety agencies
    Question. Earlier this month before this subcommittee, I voiced 
concerns I've heard regarding the President's proposal to consolidate 
food safety agencies into a new agency entirely within HHS. In that 
hearing, FDA Commissioner Hamburg stated that FDA and USDA have ``very 
different approaches'' and ``different areas of expertise'' as it 
relates to food safety.
    Would you agree with Dr. Hamburg's assessment and the idea that 
USDA brings expertise and a unique perspective to the table regarding 
food safety?
    Answer. While USDA does bring expertise and a unique perspective to 
food safety and while the U.S. food safety system is among the safest 
in the world, consolidating food safety functions is an essential step 
to reforming the Federal food safety system overall. A single Federal 
food safety agency would provide focused, centralized leadership, a 
primary voice on food safety standards and compliance with those 
standards, and clear lines of responsibility and accountability that 
will enhance both prevention of and responses to outbreaks of food-
borne illnesses. It would rationalize the food safety regulatory regime 
and allow the Federal Government to better allocate resources and 
responsibilities.
    Question. Are you concerned about the potential loss of expertise 
if USDA is removed from the food safety process?
    Answer. The Budget highlights several opportunities for 
reorganizing and reforming government, including the new proposal to 
consolidate USDA's Food Safety and Inspection Service and the food 
safety components at FDA into a single new agency responsible for food 
safety inspection and enforcement, and foodborne illness outbreak 
prevention and response. The new agency would be charged with pursuing 
a modern, science-based food safety regulatory regime drawing on best 
practices of both agencies, with strong enforcement and recall 
mechanisms, expertise in risk assessment, and enforcement and research 
efforts across all food types based on scientifically supportable 
assessments of threats to public health.
    Question. How would USDA ensure that agriculture's perspective and 
concerns are accounted for should such a consolidation occur?
    Answer. While the Administration believes that this is an 
opportunity to drive efficiency and accountability, prevent 
duplication, and make government work better and smarter for the 
American people, USDA will still work to ensure that USDA and 
agriculture's perspectives and concerns are taken into account when 
consulting with the new agency.
          environmental concerns within the dietary guidelines
    Question. In the fiscal year 15 Omnibus, there was a Congressional 
directive that expressed concern that the advisory committee was 
``showing an interest in incorporating environmental factors into their 
criteria'' and directed the Secretary to ``only include nutrition and 
dietary information, not extraneous factors'' in the final guidelines.
    As you know, the Scientific Report of the 2015 Dietary Guidelines 
Advisory Committee was just released last month. It included, and I 
quote, ``environmental approaches are needed to complement individual-
based efforts to improve diet and reduce obesity and other diet-related 
diseases.''
    Is the advisory committee report compliant with the Congressional 
directive?
    Answer. As noted above, the Congressional directive is aimed at the 
Departments, not the Advisory Committee. Congress did not mandate that 
HHS and USDA use an Advisory Committee to review evidence, so it does 
not specifically define or limit what the Advisory Committee considers. 
It's worth noting that the Committee's report is advisory in nature--it 
is not a draft of the Dietary Guidelines for Americans. Additionally, 
the 2015 Advisory Committee used the terms ``environment''/
``environmental'' in a variety of ways in its advisory report.
    Question. In a hearing before the House Agriculture Appropriations 
Subcommittee, you indicated that USDA needs to ``color inside the 
lines'' with regards to the directions you've received from Congress. 
Can you confirm that the final report will follow Congressional intent 
and focus only on nutrient and dietary recommendations, and not factor 
in environmental factors and other extraneous material?
    Answer. Working with our colleagues at the US Department of Health 
and Human Services, we will follow the statutory parameters for the 
Dietary Guidelines for Americans, focusing on providing food-based 
dietary recommendations that are grounded in the strongest body of 
scientific evidence.
    Question. Do you believe that environmental issues are within the 
purview of developing these dietary guidelines?
    Answer. While environmental issues are important overall and are a 
priority for USDA elsewhere as they intersect with the food supply, I 
do not believe they are within the confines of our Congressional 
mandate for development of the Dietary Guidelines. As the National 
Nutrition Monitoring and Related Research Act of 1990 (NNMRRA) 
stipulates, the Dietary Guidelines for Americans, published by USDA and 
HHS ``shall contain nutritional and dietary information and guidelines 
for the general public,'' and we will focus on food-based, dietary 
recommendations based on the strongest evidence on diet and health.
                     u.s. sheep experiment station
    Question. The U.S. Sheep Experiment Station in Dubois, Idaho, has 
improved the knowledge and understanding of how the interaction between 
domestic and bighorn sheep may impact wild sheep herds, which has 
resulted in improved health for both domestic and wild sheep. Last 
year, USDA attempted to reprogram funds and would've shuttered the 
program if Congress didn't intervene.
    Can you commit to not attempting to reprogram funds from the USSES 
or make other efforts to close the station?
    Answer. ARS' ability to conduct innovative grazing research at the 
U.S. Sheep Experiment Station (USSES) continues to be negatively 
impacted by changes in domestic sheep access to grazing lands. This 
reduction in access is the result of changes in the areas permitted for 
grazing by domestic sheep to minimize contacts with expanding bighorn 
sheep populations and conflicts within the grizzly bear habitat in the 
Greater Yellowstone area. A variety of other factors, including a 
continued lack of resources, both human and financial, and inadequate 
infrastructure have contributed to the unsustainability of the ongoing 
research program at the USSES. USSES will remain open and operational 
during fiscal year 2015 to allow further input to be provided by 
stakeholders. However, given the ongoing, serious challenges to 
operating USSES, the fiscal year 2016 Budget for ARS does include a 
proposal to close the USSES and reprogram the associated funding to 
high priority research at other ARS locations in Idaho as the program 
is not sustainable.
    The proposed closure of the USSES will not, however, negatively 
impact our research, knowledge, or understanding of sheep health, as 
sheep research will continue elsewhere.
                                 ______
                                 
              Questions Submitted by Senator Jeff Merkley
               healthy foods financing initiative (hffi)
    Question. Mr. Secretary, will you please discuss progress and 
successes to date of the Administration's Healthy Foods Financing 
Initiative (HFFI)?
    In the absence of funding so far for this program, USDA has 
developed background information and scoped out a path forward. USDA 
has discussed this program with other Federal agencies (Treasury and 
HHS) that deal with healthy foods to ensure coordination and to avoid/
minimize duplication and with stakeholders. USDA has engaged with 
stakeholders and dialogue on best practices, models, ongoing policy 
efforts, areas where partners and agencies can collaborate, and other 
topics that would help inform the strategy for how the mission area can 
effectively deliver the HFFI program. Key areas discussed to date 
include:
  --Process and selection of the National Fund Manager
  --The role and duties of the National Fund Manager
  --Process for soliciting and reviewing applications
  --Contents of a regulation
    What has USDA been able to do to support the HFFI under USDA's 
current authorities?
    Answer. Without funding explicitly provided, USDA's ability to 
implement the Healthy Food Financing Initiative and to begin to finance 
retail food providers in areas with limited food access through a 
national fund manager has been severely restricted. The USDA and Rural 
Development have used existing programs and authorities to support 
efforts to increase access to healthy food. For example, in fiscal year 
2014, USDA Rural Development through the Business and Industry 
Guaranteed Loan Program, Rural Business Enterprise Grant Program, Rural 
Business Opportunity Grant Program, Value Added Producer Grant Program, 
Rural Cooperative Development Grant Program, Small Socially 
Disadvantaged Producer Grant Program, and Rural Energy for America 
Grant Program was able to fund 231 projects totaling over $77.4 million 
which assisted rural businesses in providing healthy food.
    Question. This budget requests $12.8 million for Rural 
Development's participation in the initiative. Please explain how these 
funds would be used and what you expect to accomplish.
    Answer. The funds requested for the Healthy Food Financing 
Initiative would enable Rural Development to seed a fund that through a 
third-party fund-manager would provide loans, grants and technical 
assistance to low-income and moderate-income communities for 
investments that would increase access to healthy food. Rural 
development would write the rules and regulations for the program, but 
a third-party, the fund-manager would then run the program.
    Ultimately, the awards made will support market planning and 
promotion efforts as well as infrastructure and operational 
improvements designed to stimulate consumer demand, enhance marketing, 
expand demand and retail outlets for farm products, and increase 
availability of locally and regionally produced foods.
    Funding would be made available to the following entities with 
sound strategies for addressing the healthy food needs of communities: 
businesses, non-profits, public entities, and community development 
financial institutions.
    The funds will be targeted to severely underserved low- and 
moderate-income communities. Most often low-income communities are less 
attractive, under the conventional financing, to retailers of healthy 
food. However, effective programs have shown that well-targeted 
financing and technical assistance can create viable business outcomes 
and access to healthier foods and create new markets for farmers, but 
also create jobs and support broader development efforts to revitalize 
distressed communities.
    Organizations will use grants, below-market rate loans, loan 
guarantees and tax credits to attract private sector capital for an 
even greater investment in projects that increase access to fresh 
produce and other healthy foods. The goal is to support efforts to 
provide access to healthy foods in underserved areas, to create and 
preserve quality jobs, and to revitalize low-income communities.
    USDA Rural Development will work in close coordination with USDA's 
Food and Nutrition Service and Agricultural Marketing Service in 
crafting and administering the program to ensure the goal of expanding 
healthy food access is achieved.
                    aphis overall budget priorities
    Question. Mr. Secretary, APHIS is charged with protecting the U.S. 
from invasive animal and plant pests and diseases. This budget reflects 
priority funding for: antimicrobial resistance activities in the 
Zoonotic Disease Management program; Agricultural Quarantine 
Inspections; ``citrus greening'' (huanglongbing); and expanded 
implementation of Lacey Act enforcement. These are laudatory 
priorities, but I have several questions.
    In this era of severe resource limitations, please explain your 
review process through which these priorities rose to the top.
    Answer. Our Blueprint for Stronger Service has saved American 
taxpayers a total of $1.368 billion over the last several years while 
ensuring that the American people receive the best service possible. 
While developing the fiscal year 2016 Budget, USDA focused on areas 
that would have a broad, national or international impact and improve 
our nation's economy and agricultural health, assisting rural 
communities and ensuring access to safe nutritious food for all 
consumers. USDA is supporting a government-wide initiative to deal with 
antimicrobial resistance, which affects both animal and human health. 
The Animal and Plant Health Inspection Service (APHIS) will play an 
important role in this effort by monitoring for antimicrobial resistant 
bacteria among livestock. The other increases support APHIS' mission of 
protecting the health and value of U.S. agriculture and natural 
resources. These increases will allow APHIS to meet critical needs 
related to its mission, and they also fit into USDA's goals of 
supporting rural economies and ensuring access to safe and nutritious 
foods.
    Question. Within the Specialty Crops Pests program, for citrus 
greening, you are requesting $3 million in new funding plus $4.5 
million in redirected funding. However, total Specialty Crops Pests 
support would be reduced by $10.8 million. Such a reduction would 
severely curtail control and eradication efforts on a variety of 
devastating pests including: European Grapevine Moths; Light Brown 
Apple Moths; Medflies; glassy-winged sharpshooters; and the spotted 
wing drosophila. According to your budget, in fiscal year 12 this 
program protected $27 billion worth of specialty crop production in 
this country.
    As you know, Oregon is a major producer of specialty crops. What 
assurances can you provide that this funding reduction will not impact 
our fruit, vegetable, nuts, horticulture and nursery crops production?
    Answer. USDA is proposing decreases to three areas of the Specialty 
Crop Pests program: the Citrus Health Response Program, the glassy-
winged sharpshooter program, and the light brown apple moth program. 
These proposed decreases are designed to allow for more equitable 
sharing of costs between the Federal government and those who benefit 
from these important programs. If cooperators are able to increase 
their contributions to the programs, they will continue to operate at 
their current levels. If contributions to the programs do not increase, 
APHIS would focus available resources on preventing the spread of the 
pests and diseases to new areas.
                            avian influenza
    Question. Recently new cases of highly pathogenic avian influenza 
have been detected in Michigan, Missouri, and Arkansas. This disease 
can be transmitted by wild birds and has impacted both commercial and 
backyard flocks. Selective trade restrictions have been imposed by 
numerous countries affecting U.S. poultry exports. However, this budget 
requests only a $55,000 increase for the Avian Health program.
    In the face of these newly detected cases of bird flu do you still 
believe this funding level is adequate to protect the U.S. poultry 
industry and maintain poultry exports?
    Answer. We developed our fiscal year 2016 budget request before the 
bird flu outbreak escalated to the extent that is has today. We are 
monitoring this situation closely, and are keeping our trading partners 
fully informed. To address this issue, we are using appropriated and 
emergency funding carried over from previous years as well as funds 
appropriated in fiscal year 2015 to carry out response actions. These 
actions include indemnifying producers and conducting surveillance 
activities in areas near detections. If we find that we cannot 
adequately address the situation through these funding sources, we will 
pursue emergency funding sources.
    Question. What access do you have to Commodity Credit Corporation 
funds to address emergencies of this sort?
    Answer. I am authorized to quickly access and transfer funds from 
the Commodity Credit Corporation to any USDA agency in the event of an 
agricultural emergency. As part of the process, the Office of 
Management and Budget reviews the emergency funding request to ensure 
consistency with Administration priorities and apportions the funding 
accordingly.
     implementation of new methods of poultry slaughter inspection
    Question. Mr. Secretary, the Food Safety and Inspection Service is 
responsible for the safety and accurate labeling of domestic and 
imported meat, poultry and processed egg products. This is generally 
accomplished through in-plant inspections carried out by a cadre of 
FSIS inspectors. Your budget proposes to cut overall agency funding by 
$4.9 million, chiefly relying on $10 million in savings to be achieved 
by implementation of new methods of poultry slaughter inspection.
    Mr. Secretary, you have been working toward implementing these new 
methods of inspection for several years. Have you made sufficient 
progress to achieve these savings in fiscal year 16?
    Answer. With the publication of the final rule in August 2014, we 
plan on being able begin implementation and anticipate the first plants 
converting by the end of fiscal year 2015. Our fiscal year 2016 
estimate is based on the timeline in the final rule which estimated 
implementation going from fiscal year 2015 through fiscal year 2019.
    Question. We continue to hear concerns that these new inspection 
methods will sacrifice food safety for expediency. What assurances can 
you provide that the safety of our food supply will not be compromised 
by this new process?
    Answer. As a result of the new rule, the bacterial testing 
requirements for all plants, including those who elect to participate 
in the new system, as well as those who retain their existing system, 
will be required to perform both pre-chill and post-chill bacterial 
testing, effectively doubling the testing requirements for pathogens 
such as Salmonella and Campylobacter. The FSIS Risk Assessment based on 
the best science available, presents estimates that industry-wide 
adoption of NPIS would reduce the number of human illness, attributed 
to young chicken and turkey products by an average of about 3,980 
Salmonella illnesses and about 840 Campylobacter illnesses annually. 
Our data has shown that the HIMP model plants, on which the New Poultry 
Inspection System is based, have food safety records that are as good 
as, or better than, that of the traditional slaughter plants.
    Question. We also hear concerns that the accelerated carcass line 
speeds will jeopardize worker safety. I understand that those plants 
participating in the pilot program will continue to be allowed to move 
poultry carcasses at 175 birds per minute. That is an astounding speed-
equal to three carcasses a second. What type of inspection can 
conceivably take place in 1/3 of a second? What studies have you 
undertaken and what information can you provide that these line speeds 
will not threaten worker safety?
    Answer. In response to public comment, the maximum line speeds for 
plants that adopt the NPIS are capped at 140 birds per minute, 
consistent with the maximum speed under existing inspection programs. 
Plants that participated in the pilot program will be allowed to 
maintain line speeds of 175 birds per minute. USDA received numerous 
comments on the proposed rule related to work safety and has partnered 
with Federal agencies responsible for worker safety to address those 
concerns.
                  merging food safety responsibilities
    Question. Mr. Secretary, there is a very brief write-up in the 
budget appendix indicating the President is asking for reorganization 
authority to merge all food safety responsibilities into one agency, to 
be housed in the Department of Health and Human Services (DHHS).
    Will you please describe, in more detail than provided in the 
budget, what this proposal entails?
    Answer. The Budget highlights several opportunities for 
reorganizing and reforming government, including the new proposal to 
consolidate USDA's Food Safety and Inspection Service and the food 
safety components at FDA into a single new agency responsible for food 
safety inspection and enforcement, and foodborne illness outbreak 
prevention and response. The Administration believes that this is an 
opportunity to drive efficiency and accountability, prevent 
duplication, and make government work better and smarter for the 
American people.
    Question. Is a legislative proposal forthcoming on this 
reorganization?
    Answer. The Budget demonstrated examples of what the President 
would do if Congress reenacted broad reorganization authority. The 
Administration believes that this is an opportunity to drive efficiency 
and accountability, prevent duplication, and make government work 
better and smarter for the American people.
    Question. Can you provide assurances that the food safety expertise 
developed in the Food Safety and Inspection Service will not be eroded 
through this reorganization?
    Answer. USDA and FDA have strong collaborative ties that have 
improved Federal coordination of the nation's food safety system. The 
new agency would be charged with pursuing a modern, science-based food 
safety regulatory regime drawing on best practices of both agencies, 
with strong enforcement and recall mechanisms, expertise in risk 
assessment, and enforcement and research efforts across all food types 
based on scientifically supportable assessments of threats to public 
health.
                           rental assistance
    Question. Mr. Secretary, the Department's Rental Assistance program 
subsidizes certain tenants of affordable rural housing to pay no more 
than 30 percent of their adjusted household incomes on rent and 
utilities. Recipients of Rental Assistance are, generally, the elderly, 
disabled, or female-headed households, with average annual household 
incomes around $10,000. This budget seeks an $83.4 million increase in 
rental assistance.
    In addition, the budget requests four program ``reforms'' that 
would appear to severely disadvantage very low income program 
participants. The Committee rejected three of these reforms in fiscal 
year 15 while accepting the fourth. However, now program advocates are 
voicing strong opposition to all four.
    Please explain the four Rental Assistance program reforms and how 
their implementation would not jeopardize the security of very low 
income tenants.
    Answer. The legislative changes the Administration has requested 
help ensure that the Rental Assistance (RA) program will continue to 
provide a safety net for the neediest rural residents and ensure the 
program's long-term sustainability. Prudent program management demands 
that Rural Development (RD) ask for adequate funding and seek authority 
to control program costs in times of budgetary constraints. On balance, 
the legislative proposals further concentrate the benefit of RA for the 
most disadvantaged rural households and extend the available funding to 
as many properties, and tenants, as possible.
No automatic renewals
    Current statutory language requires that funding on an RA Agreement 
be automatically replenished when funds are exhausted. RD's estimating 
methodology on funding amounts ensures that all RA agreements have 
enough funding for the full 12-month period. However, the Department 
has experienced the need for a second obligation in the same 12-month 
period in 3--5 percent of the renewals in a fiscal year. These 
automatic renewals will need to be funded for 12 months again.
    Having to fund these second renewals means some properties receive 
a disproportionate share of RA funds, to the detriment of other 
properties, during a fiscal year. Having this authority will allow the 
Department to more efficiently utilize RA resources; these actions will 
also eliminate same uncertainty of future program costs and provide 
budget greater predictability for the RA Program.
Selective renewals
    Selective renewals and partial year agreements are two proposals 
designed to stretch available RA funding during periods of short-term 
continuing resolutions or sequesters. During such uncertain funding 
periods, every RA Agreement that requires full 12-months' funding 
cannot be accommodated. RD seeks the selective renewals authority to 
eliminate the current practice of renewing agreements on a first-come-
first-serve basis, without regard to need. Selected renewals will 
provide to the Department the ability to prioritize or determine 
renewals for properties where the need may surpass that of other 
properties.
Partial year agreements
    Current appropriation language and statutory authority requires RD 
to obligate the entire 12-month estimated amount of RA funding at the 
time the agreement is renewed. In times when the budget is uncertain, 
such as during a short-term Continuing Resolution, providing RD with 
the ability to obligate less than a full-year of funds will provide RD 
with an important management tool that will help ensure RA is available 
for those who need it most. The result will be that the agency is 
better able to continue to meet its mission of providing affordable 
housing to residents even in times of funding uncertainty.
Minimum rent
    RD's proposal is to institute a minimum rent of up to $50 per 
month, but plans to start with a minimum rent of $25 per month. This 
authority is similar to rental assistance programs at Department of 
Housing and Urban Development (HUD). RD intends to provide hardship 
exemptions for applicants and tenants who cannot pay the minimum, and 
eviction of tenants is prohibited if they cannot pay the minimum rent. 
The Department believes this change will encourage a sense of ownership 
within the rental community by tenants, as well as contribute to the 
long-term availability of RA. The hardship exemption will ensure that 
the minimum rent requirement does not jeopardize the security of very 
low income tenants.
    Question. The $50 per month minimum rent reform appears focused on 
the very lowest income program participants. The budget states that 
waivers would be granted in cases of extreme hardship. The budget also 
contends this reform will save $5 million per year. Please explain the 
situation in which $5 million could be raised without imposing 
substantial hardship on tenants.
    Answer. The 2016 Budget requests the authority to require a minimum 
rent payment of $50 per month regardless of tenant income level. The 
proposal includes hardship exemptions for tenants that can demonstrate 
they are unable to pay the minimum. These hardships may include the 
loss of family income due to the termination of employment, termination 
of benefits from other programs, or the death of an income earner. The 
proposal also prohibits the eviction of tenants if they are financially 
unable to pay the minimum rent.
    There are currently about 42,000 households that pay between $0 and 
$50 per month as their tenant contribution toward the rent payment. The 
actual number that would see their tenant contribution increase to $50 
per month would depend on the number of exemptions approved.
    Ensuring the long term viability of the RA program is in the best 
interest of the tenants, who have come to rely on the program to help 
support their ability to live in affordable housing and allow us to 
stretch this much needed resource. The hardship exemption will ensure 
that the minimum rent requirement does not jeopardize the security of 
very low-income tenants.
    Question. Is the agency working to develop other cost containment 
strategies that would not endanger the security of very low income 
rural residents?
    Answer. The well-being of low and very-low income rural Americans 
is a top priority for this Administration and the Department of 
Agriculture. The cost containment strategies included in the 
President's 2016 budget request are intended to provide USDA with the 
tools for managing a program that provides essential support to rural 
Residents during a time of reduced budgets. The legislative proposals 
presented as cost containment strategies are a response to both budget 
reductions due to sequestration and legislatively-mandated changes--
such as reducing the duration of RA agreements--that have forced USDA 
to manage the portfolio and growing need amidst an overall reduction in 
funds.
                multi-family housing preservation pilot
    Question. Mr. Secretary, over 16,000 affordable multi-family 
housing projects in rural America have been financed using USDA loans. 
These projects include over 475,000 housing units for low and very low 
income rural households. However, the average age of these projects 
exceeds 25 years.
    With projects this old, what is the Department doing to maintain 
their physical condition and to mitigate issues of deferred 
maintenance?
    Answer. USDA has long recognized the need to revitalize its 
existing Section 515 housing. The primary means of revitalization has 
been through the Multi-Family Preservation and Revitalization (MPR) 
program, which provides flexible financing tools that can be tailored 
to provide the best financing solution to each property's needs and 
ability to repay. To stretch the Department's dollars further, MPR 
revitalization is typically done through a public/private partnership 
that includes Low Income Housing Tax Credits and third party financing, 
along with MPR funds. The Department also works with Section 515 
property owners to transfer aging properties to new owners ready and 
able to invest in the modernization of the property. USDA works to 
mitigate the risk of deferred maintenance by closely monitoring each 
property through onsite physical inspections and review of property 
financial conditions. This oversight ensures that properties are in 
safe and decent condition, and financial resources are set aside to 
address maintenance needs as they arise.
    Question. Some years ago the Committee created a pilot program to 
address property rehabilitation needs and to protect tenants if 
projects prepay and leave the program. This budget indicates the 
Department will submit legislation to make that pilot a permanent 
program. What is the status of that proposed legislation?
    Answer. The fiscal year 2016 budget request included the proposal 
to make permanent the Multi-Family Preservation and Revitalization 
(MPR) program. The 2016 budget follows similar requests to make the MPR 
program permanent in the fiscal years 2014 and 2015 budget. USDA 
believes the MPR program fills a critical need for flexible financing 
that can revitalize our rental housing without the need for significant 
increases in tenant rents to pay for it. The Department has delivered 
the legislative proposal to OMB for their consideration and 
transmission.
    Question. What changes will the proposed legislation include 
compared to the existing pilot?
    Answer. The proposal to make the MPR program permanent will provide 
the same financing tools Rural Development has been using in the pilot 
program. These tools include providing zero percent loans, soft second 
loans, grants for health and safety repairs, and modification of 
existing loans. These tools have been very successful in meeting the 
needs of properties that have participated in the MPR program.
    Question. Have you worked with housing advocates, owners, and other 
interested parties in the drafting of this proposal?
    Answer. USDA has met frequently with housing advocates, owners, and 
other interested parties over the years in relation to the MPR and 
other Multi-family housing programs. I believe the proposal that has 
been drafted meets the needs of our Multi-family stakeholders.
    Question. One concern we frequently hear is that the Department is 
unable to expedite the transfer of a property from the current owner to 
a non-profit purchaser. These transactions typically take 18 months or 
more, which places incredible burdens on the buyers in terms of holding 
together financial packages. What is the Department doing to streamline 
and accelerate this process?
    Answer. RD has consulted with its customers and they have 
identified the process for transferring properties as one of the most 
in need of streamlining. RD has been working with stakeholders in a 
Lean Six Sigma improvement process to identify barriers to making the 
transfer process more efficient. Stakeholders have also recommended 
process improvements that will reduce processing times, provide 
transparency into the transfer process, create a consistent set of 
transfer requirements, and create predictability. Currently, Rural 
Development is working to implement several of these process 
improvements. These include: 1) providing buyers, sellers and other 
parties with a preliminary assessment tool they can use to test the 
terms of their transfer prior to submission to Rural Development; 2) 
developing a simpler, easier to use underwriting tool that incorporates 
more industry standards in transfer underwriting; and, 3) revising 
Multi-family handbooks to formalize these changes in underwriting 
policy.
    Question. Tenants currently residing in two Section 515 financed 
properties located in Merrill and Myrtle Creek, Oregon are in danger 
losing their Rental Assistance subsidized housing this summer due to 
the underlying mortgages reaching maturation. Will you commit to using 
your authority to extend these mortgages for a short period of time to 
give the willing and qualified sellers and buyer's sufficient time to 
preserve these two properties?
    Answer. Rural Development is preparing to issue guidance to Multi-
family Housing staff, outlining steps to take on maturing mortgages, 
including the ability to offer short-term or long-term mortgage re-
amortization to keep properties in the MFH portfolio and continue to 
provide affordable housing to residents. Owners will also be encouraged 
to participate in the MPR program, which would enable them to take 
advantage of a long-term debt deferral. If owners decline both of those 
offers, we strongly suggest they request prepayment, which would enable 
the property's tenants to receive offers of an RD Voucher.
    Question. Is there anything this Subcommittee can do to assist you 
with these issues?
    Answer. The Department currently offers portable housing vouchers 
to tenants of affordable housing projects that were financed with USDA 
loans, and whose owners pre-pay and leave the program. The 
Administration has proposed to expand eligibility to tenants of 
projects whose mortgages have matured and been paid off in the 2016 
budget.
    We would appreciate the support of the Subcommittee for this 
proposal. In addition, constituent stakeholders interested in 
purchasing a maturing project, should contact the RD State Office and 
submit a transfer application. Once the State Office receives a 
complete application, it can prioritize the processing. If the 
potential purchaser is not familiar with RD's transfer process, our 
State Office stands ready to help.
                            housing vouchers
    Question. Mr. Secretary, the Department currently offers portable 
housing vouchers to tenants of affordable housing projects that were 
financed with USDA loans, and whose owners pre-pay and leave the 
program. The Administration proposes to expand eligibility to tenants 
of projects whose mortgages have matured and been paid off.
    This budget requests $15 million in fiscal year 16. Is that 
sufficient both to renew all expiring vouchers and to fund new vouchers 
stemming from pre-payments and maturing mortgages?
    Answer. RHS believes that the $15 million level will be sufficient 
to renew all expiring vouchers and allow for funding prioritization for 
new vouchers as demand warrants, including the proposed expansion of 
the Voucher program to tenants in properties with maturing mortgages. 
With the Department's initiative to retain as many maturing mortgage 
properties as possible, we believe the proposed funding level will 
accommodate the need for new vouchers for these tenants.
    Question. Do you expect the demand for vouchers to grow 
significantly due to including tenants in maturing mortgage properties?
    Answer. There will be a small increase in demand, which we have 
accounted for in our estimates. In 2015, we have focused our efforts on 
outreach to owners of properties with maturing mortgages, working with 
them to find ways to keep them in the program if they are willing. So 
we believe going forward we will be more successful retaining our 
Section 515 properties in the program.
    RD's initial efforts have succeeded in 2014, where 10 of the 14 
properties expected to leave have remained in RD's portfolio. As the 
initiative gains momentum and visibility, we believe more owners will 
take advantage of the incentives we offer.
                       self-help housing program
    Question. The Department's self-help housing program provides 
grants to non-profit organizations that coordinate small groups of 
families aspiring to achieve homeownership through the self-help 
method. These families jointly work on their houses, contributing sweat 
equity that ultimately lowers their purchase prices.
    Mr. Secretary, this is one of the most popular programs in this 
bill. Please explain why this budget slashes the program by 64 percent?
    Answer. The Mutual and Self-Help Housing Program has played an 
important role in providing opportunities for affordable housing for 
low and very low-income families in rural America for 50 years. The 
requested 2016 funding level for Mutual and Self-Help housing grants 
would, paired with balances from prior years, address the reduction 
proposed in this program. However, because of budget constraints, 
funding for this program in 2016 it would not support the anticipated 
demand associated with the increased program level in Section 502 
Single Family Direct.
    Question. It is our understanding that these families are the stars 
of your housing programs, in terms of making timely payments and 
achieving successful homeownership. Do you know of any other Federal 
program more effective than this in accomplishing these objectives?
    Answer. The Mutual and Self-Help Housing program is unique among 
Federal housing programs, serving the lowest income families who would 
otherwise be unable to attain homeownership. The Mutual and Self-Help 
Housing Program has played an important role in providing opportunities 
for affordable housing for low and very low-income families in rural 
America for 50 years. There is no other Federal program.
                           broadband program
    Question. Mr. Secretary, USDA has had the responsibility for some 
years of expanding access to high speed broadband services across rural 
America.
    Please discuss your view of the success the Department has achieved 
to date in this effort.
    Answer. The most significant success the USDA has achieved was the 
delivery of the Broadband Initiatives Program (BIP), a Recovery Act 
program. There are 255 active infrastructure projects and approximately 
$2.7 billion has been advanced for construction. As a result of 
Recovery Act funding, more than 213,000 households, 15,000 businesses, 
570 public safety facilities, 460 healthcare providers and more than 
700 schools and libraries are receiving new or improved broadband 
service.
    The Department also runs two other successful programs to deploy 
broadband. The Rural Telecomm Program and the Community Connect 
Program. In our infrastructure program this year, we have approved $190 
million in financing that will enhance broadband service to over 65,000 
customers. Community Connect provided $20.3 million to fund broadband 
in unserved communities in fiscal year 2014. The rules for the 2014 
Farm Bill Broadband Program are in progress and the program will start 
once the new regulation is published later this year.
    Question. The fiscal year 14 Farm Bill required changes to the USDA 
loan program. Please let us know the status of those regulation 
changes, and when you expect that revised program to be in operation.
    Answer. USDA, specifically the Rural Utilities Service (RUS), 
continue to work closely with OMB to finalize the regulations for the 
broadband loan program. USDA anticipates this process to be finalized 
in the summer of 2015 and will begin to immediately start accepting 
applications once the NOSA is posted on the Federal Register.
    Question. What can this Subcommittee do to help you promote high 
speed broadband access in rural America?
    Answer. The Subcommittee could provide funding for the Farm Bill 
broadband program in line with the President's fiscal year 16 budget 
request to help fund broadband in unserved and underserved rural areas.
                  rural child poverty pilot initiative
    Question. Mr. Secretary, this budget seeks $20 million for a pilot 
initiative to address severe rural youth poverty.
    Please describe how this initiative will work.
    Answer. The Administration's fiscal year 2016 Budget proposes $20 
million for a new program to support innovative strategies that combat 
rural child poverty by focusing on both children and the parents with a 
bundled services approach. This approach incorporates three elements:
  --Pilot program to create better coordination of current Federal 
        programs designed to help poor kids and families, with a focus 
        on helping the parents obtain employment and increase their 
        income;
  --Human resources to perform critical coordination and outreach work; 
        and
  --Rigorous evaluation to determine the efficacy of the approach for 
        broader implementation.
    Eligible uses would include educational or job training instruction 
for parents coupled with child-focused programming and support relating 
to health and early learning. The pilot will educate families on 
resources available, build local capacity for assisting families in 
rural areas through Americorps or VISTA programs. Additionally, the 
pilot will support development and maintenance of an integrated client 
and services tracking system to instantly determine client eligibility 
across Federal programs and better meet the array of client needs. The 
resources in this pilot would complement other dollars in the budget 
that assist communities and nonprofit organizations to finance the 
physical infrastructure needed to deliver services, particularly 
through the Community Facilities grants and the Distance learning 
programs. Applicants could include local governments (but not States), 
educational institutions (including community colleges as well as 
historically black, tribal, or Hispanic institutions), and community 
action agencies. Pilot program funds would be provided exclusively to 
projects that are located in areas of high poverty and that have 
embraced a bundled service, ``two-generation'' approach that focus on 
both the children and parents of low-income rural families. The maximum 
amount of the grant would be $500,000. The grants would encourage or 
require collaboration and partnerships of key entities at the local 
level. For example, the applicant may be a community action agency that 
traditionally delivers temporary assistance to needy families (TANF) 
resources and Early Head Start, and a Women, Infants, and Children 
enrollment center and in its application includes the local community 
college to deliver workforce development programs.
    Question. What empirical metrics have you identified to evaluate 
the success of the pilot?
    Answer. An outside evaluator group will be contracted to:
  --develop (in conjunction with Rural Development) appropriate 
        measures to allow an evaluation of the pilot program, and
  --implement experimental and quasi-experimental impact evaluations to 
        evaluate the program's effectiveness.
    The evaluation work will identify best practices and provide 
information and recommendations on potential expansion of Federal 
investment around the ``bundled'' service delivery approach.
    Question. Will you have enough time to demonstrate that these 
activities can be successful?
    Answer. If the funding requested is provided in fiscal year 2016, 
USDA plans to announce, select and fund ``bundled'' service projects in 
2016. Projects will provide services in 2016 and 2017. Pilot project 
evaluation will take place in 2018.
                      community facilities grants
    Question. Community facilities loans and grants can be used for 
almost any essential community facility, including; schools; hospitals; 
clinics; libraries; public buildings; child and elderly day care 
facilities; health and safety vehicles and equipment; etc. This budget 
requests a 285 percent increase in the regular community facilities 
grant program.
    What is the purpose of this huge increase in these grants this 
year?
    Answer. Additional Community Facilities (CF) grant funds will 
enable RD to support investments in critical community infrastructure 
in high need, high poverty areas such as Promise Zones, the Coal 
Community Revitalization initiative and Strike Force among others, 
where there is limited ability to carry a loan. The increase in the 
grant program is comparable to the increase the CF direct loan program 
has experienced in the recent years. These additional CF grant 
investments will be targeted to those communities that need help the 
most.
    The USDA Community Facilities program has proven a particularly 
effective tool for fostering partnerships and leveraging other sources 
of funding. Additional grant dollars will only increase RD's ability to 
do this while ensuring that these investments are made in places where 
they are needed most.
    Question. Do you plan to pair these grants with the large ($2.2 
billion) loan program to achieve a more effective combination loan/
grants Community Facilities program?
    Answer. CF grant funds will be targeted to those communities that 
need the help the most, i.e. Strike Force, Promise Zones, and other 
high poverty areas. Applicants with the financial capacity to repay a 
direct loan at reasonable rates and terms may leverage loans funds with 
competitive grant funds to help reduce total project cost and 
strengthen the financial viability and project sustainability. Some of 
these grant funds may be paired with loan funds, but it is expected 
that communities in high poverty areas will be unable to afford much 
debt, so most of these additional grant funds may not be paired with 
loan funds.
                     local and regional procurement
    Question. According to a 2013 Cornell study of three countries, 
food aid recipients were unconditionally more satisfied with LRP 
compared to US shipped commodities. This sentiment was most pronounced 
among the poorest ``less-well-off'' recipients.
    What steps are being taken to ensure that commodity foods shipped 
are compatible with local tastes and dietary needs?
    Answer. The McGovern--Dole International Food for Education and 
Child Nutrition Program is USDA's primary international feeding 
program. The school meals and take home rations provided under 
McGovern-Dole address dietary deficiencies. McGovern-Dole projects are 
conducted by non-profit charitable organizations, cooperatives, the 
United Nations World Food Program and other international 
organizations. These implementing partners that USDA works with on the 
ground are instrumental in determining the proper foods to ship. All 
proposals submitted must provide a justification for the commodities 
being recommended as well as a full explanation of how the commodities 
meet the dietary needs of the beneficiaries.
    Additionally, USDA's implementing partners and their sub-recipients 
often go to the recipient country to develop and test recipes that are 
suitable to the local tastes and dietary needs. USDA's implementing 
partners also work with local communities and farmer grounds who 
provide local commodities to add to the school meals, thereby helping 
to tailor the meals to local preferences. Many schools have gardens, 
with the produce used to complement the U.S. commodities in the school 
meals.
    Question. If U.S. shipped commodities are not found to be 
compatible with local tastes and dietary needs, what steps are taken to 
address this problem and ensure beneficiaries are actually utilizing 
U.S. commodities?
    Answer. USDA's implementing partners and their sub-recipients often 
go to the recipient country to develop and test recipes that are 
suitable to the local tastes and dietary needs. USDA's implementing 
partners also work with local communities and farmer groups who provide 
local commodities to add to the school meals, thereby helping to tailor 
the meals to local preferences. Many schools have gardens, with the 
produce used to complement the U.S. commodities in the school meals.
    Question. When coupled with existing programs that strengthen local 
community systems and infrastructure, LRP can be adopted by 
knowledgeable beneficiaries with consideration given to impacting local 
markets. Given that most food assistance programs include a local 
capacity building component (McGovern/Dole FFE, Title II non-emergency 
programming) has there been any consideration for use of LRP to help 
transition to locally available products in these programs?
    Answer. USDA's food aid programs, particularly McGovern-Dole, are 
intended to ultimately be transitioned to host country governments. As 
such, there is every hope and intention that the LRP will help in 
assisting this transition by using locally available products as a 
source for food aid programs that will ultimately spur economic 
development in countries where these programs are implemented.
    Question. If appropriated, how would the $20 million for LRP be 
utilized?
    Answer. The $20 million for LRP requested in the President's budget 
is expected to support three to four development programs, similar to 
those in Bangladesh, Nicaragua and Mozambique supported by the LRP 
pilot program, and completed in 2012. The program will serve as a 
complementary tool to existing food aid programs, especially the 
McGovern-Dole international School Feeding Program. Under the LRP 
program, grants will be provided to eligible organizations including 
private voluntary organizations, cooperatives, and the World Food 
Program to implement projects involving local farmers, farmer 
organizations, parent groups and local governments.
    Question. Besides working with McGovern-Dole programs, do you see 
an opportunity to pair the new LRP program with Title II non-emergency 
programs?
    Answer. USDA and USAID communicate regularly on programming 
decisions to avoid duplication and understand areas for potential 
collaboration. For USDA's LRP funding, the two agencies will continue 
to explore opportunities to leverage our respective programs. For 
example, one possible area of collaboration would be if McGovern-Dole 
school feeding programs bought a portion of the commodities for school 
meals from associations supported by Title II non-emergency or Bureau 
of Food Security programs. Such opportunities would need to be 
evaluated on a country by country basis.
                           food for progress
    Question. Please provide the subcommittee with the average time it 
takes to put out a solicitation for a Food for Progress grant, review 
bids and award a grant to an implementing partner.
    Answer. Grants under the Food for Progress program fund non-
emergency, agricultural capacity building projects. Food for Progress 
projects, which are usually multi-year, have trained farmers in animal 
and plant health, improved farming methods, developed road and utility 
systems, established producer cooperatives, provided microcredit, and 
developed agricultural value chains. Program participants have included 
private voluntary organizations, foreign governments, universities, and 
intergovernmental organizations.
    The average duration between publishing the Food for Progress 
(FFPr) grant solicitation to signing the agreement is approximately 190 
days, including 90 days for interested organizations to submit 
proposals, and 100 days for USDA to review proposals and negotiate 
agreements.
    Question. How does the length of time between solicitation and 
award for Food for Progress differ from Food for Peace?
    Answer. USAID's average award time for non-emergency programs under 
Food for Peace is 228 days, while the average Food for Progress (FFPr) 
award time is 190 days.
    Question. If there are delays of over 6 months between bids and 
awards, what are the major constraints that contribute to these delays?
    Answer. The typical time between proposal receipt and award is 100 
days. In fiscal year 2014, FAS negotiated the proposals within that 
timeframe. Complexities of projects and negotiations with implementing 
partners can impact the time to complete the agreement.
    Question. Does Food for Progress have a policy that grants must be 
turned around in 120 days, similar to Food for Peace?
    Answer. FAS is committed to ensuring that grants are turned around 
as quickly as possible, but does not have a policy that grants must be 
turned around in 120 days. Since these are development, not emergency, 
programs, and since the requests for Food for Progress greatly exceeds 
the limited resources, FAS has put in place an extensive review process 
to ensure that the awards are made to the best proposals that reach the 
greatest number of beneficiaries and have the highest degree of 
success.
    Question. How many staff work on Food for Progress programs?
    Answer. There are nine full-time equivalent employees working on 
Food for Progress programs. They are responsible for all aspects of 
Food for Progress projects, including planning, programming, 
monitoring, and grants management activities.
    Question. Is there a staff shortage at Food for Progress that 
causes delays in processing of grants?
    Answer. In late 2014, USDA initiated a human capital assessment of 
the Food Assistance Division that aimed to provide an independent 
assessment of workforce requirements for Food for Progress programs. 
The Foreign Agricultural Service is implementing the results of this 
independent assessment to ensure efficient and effective food aid 
programming.
    Question. How does the number of staff at Food for Progress compare 
to other grant making offices in USDA? Or USAID?
    Answer. There are nine full-time equivalent employees dedicated to 
planning and implementing the Food for Progress program. There are nine 
full-time equivalent employees who program the McGovern-Dole Food for 
Education and Child Nutrition program. And 64 full-time equivalent 
employees working in USAID's Office of Food for Peace.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                     usda assistance to california
    Question. California is going into another year of drought. Ground 
water, snow pack, and reservoir levels are dangerously low. Communities 
like East Porterville are running out of drinking water, and both 
farmers and farm workers are suffering.
    Are the funds requested in your fiscal year 2016 Budget sufficient 
to address California's worsening drought disaster?
    Answer. The challenges facing drought-stricken areas are so severe 
that we will undoubtedly need to leverage Federal dollars and find 
innovative partners to help us provide as much relief as possible. 
Across USDA, we are actively working to address the needs of 
communities facing this historic drought. The Department is committed 
to assisting rural communities and we also know our partners are being 
innovative about what resources they can bring to the table.
    Specific to the fiscal year 2016 request, the President's budget 
requested $10 million in additional appropriated funding for Emergency 
Community Water Assistance Grants. While this increase may seem small 
given the magnitude of the problem, it is being coupled with 
application process improvements and the granting of priority to 
drought impacted communities. Collectively, these efforts should go a 
long way in providing safe, reliable drinking water in drought-stricken 
communities.
    In addition to the increase within Rural Development, the fiscal 
year 2016 President's Budget includes a continuation of many other USDA 
programs that will assist producers in drought-stricken areas. For 
example, the permanent livestock disaster programs provided by the 2014 
Farm Bill will be continued. Targeted conservation assistance for 
drought-stricken areas is another example of a successful program the 
Department plans to continue.
    Question. What additional steps can your Department take to address 
this disaster across California?
    Answer. Last year, President Obama and I travelled to Fresno, 
California to outline a drought relief action plan aimed at mitigating 
the impacts of this natural disaster for farmers, ranchers and 
residents alike. I'm proud to say that USDA met or exceeded the 
commitments we made over a year ago to these communities and I'm proud 
of the progress we've made. Unfortunately, the relentlessness of the 
drought has made the challenge confronting the Western U.S. 
increasingly serious. We continue to collaboratively deploy the 
resources made available to us and believe our budget request will 
position us to do even more in the year ahead. That said, the 
challenges facing these drought-stricken areas are so severe that we 
will undoubtedly need to leverage these Federal dollars and find 
innovative partners to help us provide as much relief as possible. 
Across USDA, we are actively working to address the needs of 
communities facing this historic drought.
                           pathogen standards
    Question. I am pleased your Department proposed new pathogen 
standards for poultry products in January. I believe these standards 
will improve food safety.
    Can you tell me what date these will be finalized and implemented?
    Answer. On January 26, 2015 FSIS issued a notice and request for 
comments on performance standards for chicken parts and the new 
standards for comminuted chicken and turkey. While I cannot provide a 
precise date when the new standards will be finalized and implemented, 
let me assure you that these standards are an Agency priority, and we 
will move as quickly as possible.
    Question. Secretary Vilsack, I remain deeply concerned about the 
persistent rates of foodborne illness. While the Department has moved 
to update pathogen standards for poultry products, standards for beef 
and pork products are either non-existent or outdated.
    Can you commit to me that your Department will update beef and pork 
pathogen standards?
    Answer. The Food Safety and Inspection Service (FSIS) has taken 
steps to collect the type of data necessary to conduct a risk 
assessment to ascertain whether the establishment of one or more 
pathogen reduction performance standards for beef and pork is likely to 
result in public health protection. As with the recently proposed 
standards for poultry products, any new proposed performance standards 
will be designed to achieve the Healthy People 2020 (HP2020) illness 
reduction goals, public health goals that FSIS and the Department of 
Health and Human Services worked together to create. We continuously 
strive to eliminate foodborne illness, and we will continue working 
toward that goal by utilizing a stepwise approach grounded in a shared 
national objective.
    USDA continues to review information on how inspection and 
inclusion of different lymph nodes in ground beef affects Salmonella 
contamination in the product, including our agencies partnering with 
each other (FSIS and ARS) to explore the potential public health 
impacts of Salmonella in lymph nodes. Findings will be incorporated 
into future revised slaughter guidance materials.
    By May, FSIS will begin exploratory sampling of a variety of pork 
products, including finished products packaged and ready to be sold to 
the consumer, to determine which products (for example, intact parts or 
ground) might harbor Salmonella contamination. The results of this 
sampling will inform plans to collect more extensive data with which to 
develop public health benefit-based performance standards in alignment 
with HP2020 goals.
                        wildfires in california
    Question. Secretary Vilsack, California is primed for a wildfire 
disaster given the ongoing drought across the state. What is the Forest 
Service doing to be prepared to respond quickly to wildfires in 
California?
    Answer. The Forest Service maintains a robust response (personnel 
and equipment) capability in California at levels that ensure an 
appropriate, risk informed and effective response to all wildland 
fires. The Forest Service also works extensively with our partners at 
CALFIRE and other local firefighting organizations, to support wildland 
fire management operations and meet operational objectives. Significant 
planning occurs throughout the year to establish response expectations 
for when wildfires do occur, as well as establishing roles and 
responsibilities for the Forest Service and our cooperators. The Forest 
Service works with CALFIRE throughout the fire season to pre-position 
assets where the risk of fire is highest. We also coordinate 
responsibilities for asset availability and training to be sure our 
response minimizes the risk to people, communities, and other high 
valued resources.
                              air tankers
    Question. Secretary Vilsack, the National Defense Authorization Act 
of 2014 transferred seven C-130H tankers from the U.S. Coast Guard to 
the U.S. Forest Service for use in firefighting operations. Can you 
provide me an update on the transfer and retrofitting of these 
aircraft, and when they will be operational for fire suppression?
    Answer. One HC-130H is expected to be in limited operation for the 
2015 fire season. The aircraft will be equipped with a Modular Airborne 
Fire Fighting System (MAFFS). A second HC-130H may be available later 
in 2015, depending on Air Force maintenance schedules. This aircraft 
will be used for flight testing and evaluation only and will not be 
equipped with a MAFFS unit. Ownership for both aircraft will be 
retained by the Coast Guard until all required maintenance is completed 
and a retardant delivery system is installed. Once that is completed 
ownership will be transferred to the Forest Service.
    The first aircraft with the new gravity retardant delivery system 
installed is expected in 2017 and the second in late 2017. Three more 
are expected in fiscal year 2018 and the final two in fiscal year 2019.
                         antimicrobial research
    Question. Secretary Vilsack, I am pleased to see that your 
Department has requested increased funding to collect data on 
antibiotic use patterns and antibiotic resistance. This data will be 
critical for monitoring public and animal health.
    What type of studies and surveys does your Department have planned?
    Answer. If funding is provided as requested in the 2016 President's 
Budget, NASS proposes to develop annual surveys for Cattle on Feed, 
Hogs and Pigs, and Poultry. This new data can be used to established a 
baseline for these livestock and help track this growing problem. The 
baseline survey will do several things to respond to Antimicrobial 
Research or Combating Antibiotic Resistant Bacteria (CARB) problem:
  --Establish data to measure the extent of the problem (broad 
        approach);
  --Strengthen the knowledge and evidence base to allow for other 
        agencies (that do more in-depth research work) to use NASS 
        collected data as a starting point and go forward with more 
        probing type questions;
  --Develop trend analysis;
  --Check the status of CARB with annual data collection surveillance 
        to show whether the problem is growing worse, unchanged, or 
        improving.
    NASS is working with Economic Research Service (ERS) and Animal and 
Plant Health Inspection Service (APHIS)--to institute an annual, 
national antibiotic use survey and to enhance the APHIS National Animal 
Health Monitoring System (NAHMS) surveys. Questions could be added to 
provide national, population-based estimates on antibiotic-use 
practices from the voluntary NAHMS survey. In addition, a sufficient 
number of operations could be sampled and tested for the presence of 
zoonotic pathogens (e.g., Salmonella, Campylobacter) and commensals 
(e.g., Enterococcus, E. coli) to provide national, population-based 
estimates on prevalence and antimicrobial resistance in these 
organisms.
    ERS is collaborating with other USDA science and program agencies 
through the USDA Antimicrobial Resistance Action Plan Committee to 
examine the economic implications of efforts to combat antimicrobial 
resistance. ERS research draws on data from the Agricultural Resource 
Management Survey (ARMS) to examine how antibiotics are used in 
livestock production; to estimate the effects of antibiotics used for 
disease prevention and growth promotion on farm-level costs and 
productivity; and to identify alternative production practices used on 
operations that eschew the use of antibiotics for those purposes. In 
fiscal year 2016 analysis from the farm-level ARMS will explore the 
extent of use by livestock species, stage of production, and purpose, 
as well as the impact of use on growth and recent policy issues.
    Question. Do you have the cooperation from livestock producers 
necessary to make these surveys and studies successful?
    Answer. NASS has contacted the industry for broilers, cattle on 
feed, and hogs & pigs. NASS needs to do more outreach to get more 
cooperation from the industry, however, those contacted realize the 
importance of collecting this information. NASS realizes that without 
industry cooperation these surveys will not be a success.
    Question. Secretary Vilsack, the Food and Drug Administration (FDA) 
is implementing new policies to eliminate non-therapeutic antibiotic 
use in agriculture and to move antibiotics under veterinary oversight.
    What additional steps can your Department take to educate 
veterinarians on these new FDA policies and to improve antibiotic 
stewardship in agriculture.
    Answer. USDA will continue to conduct outreach as appropriate, in 
coordination with FDA, to ensure veterinarians are aware of FDA's 
policies.
                      specialty crop pest program
    Question. Secretary Vilsack, I am deeply concerned that your 
Department proposed to cut the Specialty Crop Pest Program. California 
continues to battle many agricultural pests and diseases, and there is 
increasing risk that new pests and diseases will be introduced to the 
state via international commerce. In fact, the Glassy Winged 
Sharpshooter, a devastating pest to grapes, was found in Marin County 
this month.
    What additional steps can your Department take to combat 
agricultural pests and diseases like the Glassy Winged Sharpshooter?
    Answer. I certainly recognize your concern about the risks posed by 
invasive pests and diseases to California agriculture. I can assure you 
that preventing the entry of pests and diseases into the United States 
and detecting any new introductions early remains one of USDA's highest 
priorities.
    In addition to using appropriated funding, APHIS is using funding 
provided under Section 10007 of the 2014 Farm Bill to enhance early 
detection and emergency response efforts for plant pest and disease 
management and disaster prevention programs. In developing the spending 
plan each year, APHIS seeks suggestions from States and U.S. 
territories, universities, other Federal agencies, nongovernmental 
organizations, private companies and tribal organizations for projects 
that would provide a direct and meaningful impact in managing pests and 
diseases, as well as disaster prevention.
    In fiscal year 2014, APHIS funded 382 suggested projects across the 
United States, as well as in Guam and Puerto Rico, with 30 projects in 
California. The projects in California included surveys for exotic 
pests that attack citrus, tomatoes, nursery stock, and a variety of 
other specialty crops, training for detector dogs to find exotic pests 
in mail and cargo, as well as projects focused on best practices for 
nurseries in preventing the introduction and spread of diseases like 
Phytophthora ramorum and other invasive pests. These efforts allow 
APHIS and State partners to continue strengthening protections against 
agricultural threats. APHIS will release the fiscal year 2015 spending 
plan in spring 2015.
    In regard to the recent detection of a live glassy-winged 
sharpshooter (GWSS) on a nursery shipment that was being unloaded in 
Marin County, county inspectors ordered all of the plants to be 
reloaded and then sealed the trucks. The trucks returned to Ventura 
County the next morning. The California Department of Food and 
Agriculture (CDFA) and Marin County officials placed additional traps 
at the location where the insect was found and will continue to monitor 
the area for a month. Through this program, APHIS, CDFA, and the grape 
industry work to prevent the spread of GWSS into the major grape-
producing counties of California. The program will continue using 
proven regulatory protocols and inspections to prevent GWSS from 
expanding its range. The Agency's fiscal year 2016 budget proposes a 
decrease for the GWSS program to encourage cooperators to put 
additional resources into this program that benefits them. If 
cooperators are able to devote additional resources, programs will 
continue to operate at the same level as in fiscal year 2015. If 
cooperators cannot increase contributions, APHIS and CDFA will 
prioritize the remaining funds to address the highest risk threats.
                           animal welfare act
    Question. Secretary Vilsack, the Inspector General (IG) published 
an audit in December that found troubling inconsistencies in 
enforcement of the Animal Welfare Act. This follows a 2010 IG audit 
that identified similar problems. I am also concerned that your 
Department is not fully utilizing the existing enforcement authorities 
provided in the Animal Welfare Act, such as seeking a temporary 
restraining order or injunction against violators who place animals in 
extreme danger.
    What additional steps can your Department take to improve 
enforcement of the Animal Welfare Act?
    Answer. USDA uses all available enforcement options to ensure 
licensees and registrants are appropriately penalized for their 
violations of the Animal Welfare Act (AWA). USDA places special 
emphasis on the investigation and enforcement of cases where alleged 
animal suffering has occurred or when the lack of proper handling 
causes concern for the safety of the animal.
    Cases warranting formal prosecution may be resolved by license 
suspensions, license revocations, issuing cease-and-desist orders, 
imposing civil penalties, or combinations of these penalties. 
Concurrently, APHIS continues to exercise its authority to confiscate 
animals that are suffering when a licensee or registrant fails to 
comply with the AWA regulations and standards. Since 2010, the Agency 
has confiscated 218 animals using this authority. When appropriate, 
USDA may also work with licensees to move their animals to another 
facility when a licensee is unable to meet the animal welfare standards 
or can no longer provide appropriate animal care. In doing so, a 
licensee may agree to the suspension or revocation of their license or 
permanent disqualification from engaging in AWA-regulated activities. 
For example, in fiscal year 2013, APHIS issued 22 settlement agreements 
that resulted in the placement of more than 2,900 animals as well as 
sanctions involving AWA licensing. USDA undergoes a review process 
prior to issuing a license or registration. USDA will deny or terminate 
a license if the applicant or licensee is determined to be unfit and 
attempting to conduct business contrary to the purposes describe in the 
AWA.
    Where circumstances warrant, USDA has issued penalties at or near 
the $10,000 maximum authorized, particularly in cases involving 
research facilities and carriers (neither of which are subject to 
license suspension or revocation). Beyond seeking higher monetary 
penalties, we have pursued administrative litigation against 
chronically non-compliant entities, allowing us to seek strong 
sanctions.
    In November 2014, the Department of Justice revised the United 
States Attorneys' Manual to designate a central coordinating division 
to support USDA cases related to the welfare of animals regulated under 
both the AWA and the Horse Protection Act. As a result of this new 
collaborative relationship, USDA is better positioned to use 
enforcement authorities such as temporary restraining orders or 
injunctions to protect the lives of animals facing immediate danger 
while other administrative or legal actions are proceeding against a 
violator.
                   adequacy of the thrifty food plan
    Question. At a time when more than one in six Americans struggle to 
put food on the table, it is imperative that our nutrition assistance 
programs provide access to an adequate diet. According to the Institute 
of Medicine (IOM), however, current Supplemental Nutrition Assistance 
Program (SNAP) benefit levels based on the thrifty eating plan are 
insufficient in most circumstances and leave many households hungry by 
the end of the month. Research also demonstrates that, while it is 
possible for many households to shop for healthy foods using this 
budget, it require an additional 6 hours per week, which is especially 
challenging for low-income families.
    How does USDA's 2016 budget aim to address the insufficiency of 
current SNAP benefit levels based on the thrifty eating plan to provide 
access to adequate nutrition?
    Answer. FNS is currently addressing the sufficiency of SNAP benefit 
levels through our annual research budget by initiating the research 
that was recommended by the Institute of Medicine expert panel that 
looked at SNAP benefit adequacy.
    Last fall, FNS awarded a contract to an external organization to 
conduct a study that will assess the individual, household, and the 
environmental factors that limit adequacy of the SNAP allotment. This 
study is developing a new data collection to survey SNAP participants 
to determine these factors. The survey includes questions about cooking 
skills, shopping patterns, nutritional literacy, financial literacy, 
time available for preparing food, and other constraints. The final 
report is expected in 2017.
    In addition, before the end of fiscal year 2015, FNS anticipates 
awarding another contract to an external organization to determine 
whether the current parameters of the SNAP eligibility determination 
and benefit level calculations adequately match the real costs that 
low-income households have in regards to household budgets and food 
expenditures. This study will use existing data to examine spending 
patterns among low-income households to assess whether current SNAP 
parameters are based on realistic assumptions regarding household 
expenditures for food, shelter, medical care and dependent care. The 
final report is expected in 2016.
        assistance to drought impacted communities in california
    Question. What additional steps can your Department take to 
accommodate drought impacted communities in California, where families 
are reporting spending as much as 7 percent of their SNAP benefits on 
water because fresh drinking water is no longer available in their 
home?
    Answer. Feeding low-income families across the United States is at 
the heart of USDA's mission. The USDA nutrition assistance programs, 
such as the Supplemental Nutrition Assistance Program (SNAP) and The 
Emergency Food Assistance Program (TEFAP), are designed to respond to 
needs such as those resulting from the drought.
    SNAP is USDA's primary nutrition assistance program to address the 
needs of those experiencing economic difficulties. SNAP is designed to 
respond to deteriorations in local economic conditions, as more people 
lose jobs they become eligible for the program.
    For example, in March 2015, FNS awarded an Employment and Training 
Grant in the amount of $12 million to Fresno County Department of 
Social Services to offer multiple career-driven services, including 
education, job training, support services, subsidized and unsubsidized 
employment, retention services, ongoing case management, and financial 
incentives for clients for milestone achievements. The grant will 
provide SNAP recipients with new or better skills to improve their 
employment opportunities. This would also help residents receiving SNAP 
who have been displaced because of the drought.
    TEFAP is also designed to meet emergency food needs for those 
experiencing hard economic times. Through TEFAP, food and 
administrative funds are made available by USDA to States. States 
provide the food to local agencies that they have selected, usually 
food banks, which in turn, distribute the food to soup kitchens and 
food pantries that directly serve the public. Each TEFAP State has the 
discretion to allocate TEFAP resources to participating recipient 
agencies within the State as it sees fit. Such TEFAP resources 
allocated within the State are used to help individuals in need, 
including individuals impacted by emergency situations, such as a 
drought.
    Additional information on steps the Department is taking to 
accommodate drought impacted communities in California is provided for 
the record.
    USDA made $76.7 million available through TEFAP to food banks in 
the State of California to help families, including those that may have 
been economically impacted by the drought. In fiscal year 2014, 
California was offered $35.2 million in food and $6.6 million in 
administrative funds through TEFAP, based on a Federal funding formula 
which accounts for the State's share of national poverty and 
unemployment. Additionally in fiscal year 2014, California received 
$34.9 million of USDA bonus (i.e., market support) purchases of USDA 
Foods. In fiscal year 2015, USDA offered California $42.8 million in 
foods and $6.5 million in administrative funds through TEFAP, based on 
the above referenced funding formula. Additionally in fiscal year 2015, 
$14.2 million worth in bonus purchases made by USDA have been received 
in California year-to-date.
    In 2014, USDA worked with the California Department of Education to 
target efforts to expand the number of Summer Food Service Program meal 
sites. Over 3,600 summer meal sites operated in California in 2014. 
Also in fiscal year 2014, USDA, in collaboration with the California 
Department of Education, created a goal to establish 600 summer meal 
sites in drought stricken areas. The agency exceeded this target and by 
summer's end had 725 sites in the region. In 2015, FNS will continue to 
work with the California Department of Education and other states to 
ensure summer meals are available in areas affected by the drought.
    In 2014, USDA participated on the California Drought Task Force as 
an advisor on USDA nutrition assistance resources available and will 
continue to participate on the Task Force in 2015, as needed.
    USDA continues to work with the California Departments of Social 
Services, Education and Public Health as well as California's food 
banks to provide referrals and information on FNS programs such as 
eligibility, how and where to apply, and meal sites and hours of 
operation for the Summer Food Service Program, so that children up to 
the age of 18 can get a free meal.
               military families receiving snap benefits
    Question. The national food bank network Feeding America estimates 
in their 2014 Hunger Study that 20 percent of the 15.5 million 
households receiving food assistance from them nationally include 
someone who has previously served in the military, and roughly 4 
percent of households include someone currently serving in the 
military. In San Diego, roughly 10 percent of households seeking food 
assistance from the Feeding America Network contain an active duty 
military member.
    There are also food pantries on military bases across the country. 
The 2015 Military Compensation and Retirement Modernization Commission 
(MCRMC) report cites estimates from USDA that in fiscal year 12, 
between 2,000 and 22,000 military service members received SNAP 
benefits. Estimates of SNAP usage by military members vary widely 
because states that administer these benefits are not required to 
collect data on the actual number of active-duty service members in 
households receiving SNAP.
    Clearly there is a need for food assistance among military 
families, but these numbers indicate that military families who need 
Federal food assistance may not be fully served by the program. The 
same MCRMC report recommends ending the military's Family Subsistence 
Sustenance Allowance (FSSA) program and favors the enrollment of needy 
military families in SNAP, but these families continue to face barriers 
accessing SNAP. Namely, military families who live off base are 
reviewed differently than military families who live on base in terms 
of how their military-provided housing is recorded when determining 
SNAP eligibility and benefits. In addition, military families could 
face additional barriers to accessing SNAP depending on their station 
location under recent proposals to convert SNAP into a block grant 
program.
    In order to adequately plan for the SNAP program, how does USDA's 
fiscal year 16 budget assess the number of military households 
currently enrolled in SNAP and the number of military households who 
are potentially eligible for SNAP?
    Answer. While military families not stationed overseas are eligible 
to receive SNAP, few do, because their incomes at most ranks make them 
ineligible for benefits. While data is limited, the best estimates 
suggest only about one or 2 percent of individuals currently on active 
duty receive SNAP. Our SNAP budget projections are based on total 
expected caseload and benefit levels, which includes any military 
families that are eligible to receive SNAP and choose to participate in 
the program. FNS expects to have sufficient funds to serve any military 
households that are eligible and wish to receive SNAP benefits.
                 food insecurity in military households
    Question. How does USDA's fiscal year 16 budget make an effort to 
address food insecurity in military households and increase their 
access to SNAP?
    Answer. SNAP continues to be a vital nutrition assistance support 
program for low-income households, including those with eligible 
military service men and women, and veterans. In addition, SNAP 
provides employment and training (E&T) services to participating 
unemployed or under-employed individuals, including veterans, that 
enhance or supplement existing services. USDA provides $90 million to 
States for the cost of administering and operating a SNAP E&T program 
each year and reimburses States for 50 percent of additional 
administrative costs and participant expenses associated with these 
programs. States can design their E&T programs to meet the unique needs 
of targeted populations, such as veterans and those experiencing 
homelessness.
    Under SNAP rules, able-bodied adults without dependents (ABAWDs) 
are required to work or participate in a work program at least 20 hours 
a week in order to receive SNAP for more than 3 months within a 36-
month period. The ABAWD population invariably includes some of the most 
at-risk veterans. In order to serve this group, USDA allocates a 
portion of an additional $20 million to each State that pledges to 
provide qualifying E&T services to all at-risk ABAWDs so that they may 
continue to receive SNAP benefits while searching for work, 
participating in training, or gaining work experience.
    Lastly, USDA's fiscal year 2016 budget request includes $25 million 
in additional SNAP E&T grants to help States to offer targeted 
employment and training services to ABAWDs. This additional funding 
will ensure that ABAWDs continue to receive nutrition assistance while 
improving their skills and preparing to enter the labor market.
    summer electronic benefit transfer (ebt) demonstration projects
    Question. More than one in five American children is in a household 
struggling with hunger, an astonishing number. Child hunger is often 
most prevalent in the summer when school is out of session.
    Despite the impressive progress that USDA continues to make in 
expanding access to the Summer Food Service Program (SFSP), only 2.1 
million children were served in July 2003, which is only about 14 
percent of those who received free or reduced-price school meals during 
the previous school year.
    One of the most promising programs to supplement the SFSP--
especially for rural areas like the drought-affected Central Valley, 
where access to summer sites is especially difficult--is the Summer 
Electronic Benefit Transfer (EBT) demonstration projects piloted by 
USDA. The evaluations of this program to provide nutrition assistance 
in the form of EBT cards has proven to dramatically reduce summer 
hunger, including reducing the most severe forms of child hunger by 
approximately one third. Moreover, this program has very low 
administrative costs, and it benefits local jobs and economies through 
grocery spending.
    Given the existing pilot data proving the strength of summer EBT, 
as well as new academic research about the lifelong impact of even one 
incidence of hunger, how does USDA propose to scale up the summer EBT 
program so that it is part of our national response to the summer child 
hunger crisis?
    Answer. While the school meal programs serve about 21 million low-
income children each school day, summer meal programs, including the 
Summer Food Service Program and the National School Lunch Program 
Seamless Summer Option, reach only about 3.7 million (or about 16 
percent) of these children in the summer--a time of increased food 
insecurity for children.
    Summer Electronic Benefit Transfer for Children (SEBTC), funded by 
Congress in 2010 as a demonstration project, has shown clear results in 
reducing very low food security among children, the most severe form of 
food insecurity. The SEBTC evaluation showed it reduced the most severe 
form of childhood hunger by a third. It also showed that SEBTC can 
reach a significant proportion of children eligible for free and 
reduced-price school meals. Across the 14 pilot sites, SEBTC reached 
between 30--75 percent of children eligible for free and reduced-price 
meals in the summer. Furthermore, SEBTC children ate more healthfully. 
They ate about 13 percent more fruits and vegetables, 30 percent more 
whole grains, and 10 percent more dairy.
    Congress provided $16 million to continue these demonstration 
projects during the summer of 2015. FNS offered the 10 grantees that 
previously administered the SEBTC pilots the opportunity to continue 
providing benefits to children previously served and to expand the 
program in rural areas. Eight grantees continued their participation in 
SEBTC for summer 2015: Cherokee Nation, Chickasaw Nation, Connecticut, 
Delaware, Michigan, Missouri, Nevada, and Oregon. Two grantees from 
previous years, Texas and Washington, declined participation due to 
prohibitive logistical constraints or implementation barriers based on 
the late notice of funding. Because of uncertainties in receiving a 
final 2015 budget, FNS could not inform sites until late spring that 
they would receive summer funding. Combined with funds remaining from 
previous years, FNS was able to provide nearly $23 million to these 
eight grantees to continue and expand the program for the summer of 
2015.
    USDA is requesting an additional $50.9 million in fiscal year 2016, 
for a total of $66.9 million to continue SEBTC demonstration projects. 
Funding in fiscal year 2016 will allow FNS to continue the program in 
several States, benefitting as many as 200,000 families.
    Question. How, if at all, are any of these additional investments 
targeted toward California, home to more poor children and homeless 
children than any other state?
    Answer. California was not one of the original 10 grantees selected 
to participate in the SEBTC demonstration project. Due to limited 
additional funding, FNS has been unable to solicit additional requests 
for proposals allowing new States to participate.
    However, FNS has provided targeted technical assistance to 
California for the past two summers in order to increase participation 
in the USDA summer meal programs. We saw increases in meals served in 
both summer 2013 and 2014, with almost 825,000 more meals in 2014 than 
the summer before (5.75 percent increase). California continues to 
build on this success and aims to increase the number of meals served 
by 5 percent in summer 2015. And, as noted in our response on the 
question related to drought, we are also focusing additional attention 
on drought impacted areas of the state.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
                         budget reconciliation
    Question. Do you share my concerns that a reopening of the Farm 
Bill as part of budget reconciliation would be devastating to the work 
your Department has been doing to implement the new Farm Bill 
authorities and provide certainty to program participants, crop 
insurance recipients, SNAP recipients, and agricultural producers who 
are just now going into the 2015 crop year and making sign up 
decisions?
    Answer. The new Farm Bill builds on historic economic gains in 
rural America over the past 5 years, while achieving meaningful reform 
and billions of dollars in savings for the taxpayer. It has allowed 
USDA to achieve record accomplishments on behalf of the American 
people, while providing new opportunity and creating jobs across rural 
America. It has enabled USDA to further expand markets for agricultural 
products at home and abroad, strengthen conservation efforts, create 
new opportunities for local and regional food systems and grow the 
biobased economy. It has provided a dependable safety net for America's 
farmers, ranchers and growers and maintained important agricultural 
research, and ensure access to safe and nutritious food for all 
Americans.
    The Administration strongly supports the Supplemental Nutrition 
Assistance Program (SNAP) and other critical programs that reduce 
hunger and help families meet their nutritional needs. To ensure these 
needs are met, the budget includes mandatory funds to fully support 
estimated participation levels for the Supplemental Nutrition 
Assistance Program (SNAP). SNAP is the cornerstone of the Nation's 
nutrition assistance safety net, touching the lives of millions of low-
income Americans, the majority of whom are children, the elderly, or 
people with disabilities. SNAP kept over 5 million people, including 
nearly 2.2 million children, out of poverty in 2013.
    Although the Farm Bill included several reforms to the Federal crop 
insurance program; there remain further opportunities for improvements 
and efficiencies. The President's 2016 budget includes two proposals to 
reform crop insurance, which are expected to save $16 billion over 10 
years. This includes reducing subsidies for revenue insurance that 
insure the price at the time of harvest by 10 percentage points and 
reforming prevented planting coverage, including adjustments to payment 
rates. These reforms will make the program less costly to the taxpayer 
while still maintaining a quality safety net for farmers.
                     agricultural research service
    Question. I understand that the Agricultural Research Service has 
financial needs relating to the upkeep of its facilities. While I want 
the Service to have the resources it needs to maintain its facilities I 
am concerned about ARS potentially shifting funds from existing 
programming lines to address this need. Can you provide the Committee 
with more details about the needs of its facilities and provide 
reassurance that ARS is not pulling back resources from partnership 
programs to fund this work?
    Answer. ARS annually requests funding specifically for the repair 
and maintenance (R&M) of often dilapidated facilities to ensure that no 
funds are pulled back from research in order to fund R&M work. In 
fiscal year 2015, ARS requested and allocated $20 million of a $1.13 
billion appropriation to carry out the research mission of the agency 
for repair and maintenance. This is less than 2 percent of its 
appropriated budget.
    The fiscal year 2016 budget request includes an increase of $20 
million to help address the backlog and extend the life span of ARS 
research laboratories and facilities, provide opportunities for longer 
term savings, and ensure the capacity to conduct safe, quality 
research. These funds will be distributed on a priority basis across 
the agency's entire facility inventory. The cost for most of these 
repair and maintenance projects ranges from $50,000 to $500,000.
    The ARS facility infrastructure is valued at more than $3.7 
billion, with many of these facilities established in the 1950s and 
1960s. The backlog of repair and maintenance (R&M) needs exceeds $320 
million for work such as the repair or replacement of: HVAC, 
electrical, plumbing, roof, building envelope, site utility system, 
fire protection system, and other safety systems. Many of these systems 
and items have reached the end of their service life and no longer meet 
compliance or safety requirements.
                             rural housing
    Question. In many rural communities, the only available source of 
affordable rental housing is funded through the Section 515 Rural 
Rental Housing Loan Program. Today, nearly 400,000 of America's most 
vulnerable families live in housing financed under Section 515 and 
nearly 94 percent of Section 515 tenants earn very low incomes.
    However, after years of significant budget cuts for the program, in 
2012, the Department halted financing the construction of new rental 
housing. Current funding for the Section 515 Rural Rental Housing 
Direct Loan Program is used only for the much needed rehabilitation and 
maintenance of the existing portfolio.
    How does the Department's proposed budget assist the rural 
Americans who are not looking to become homeowners, but are in need of 
an affordable place to live with their families?
    Answer. The 2016 budget seeks to assist rural Americans in need of 
rental housing in a number of ways. First, it provides rental 
assistance to support more than 250,000 rural residents in need of 
safe, decent and affordable housing. Second, it increases funding in 
the Section 515 and MPR program to help preserve and revitalize Rural 
Development's existing rental housing portfolio. Third, it proposes to 
increase funding in the Section 515, Section 538 Guaranteed, and Rental 
Assistance programs for the construction of additional affordable 
housing, particularly in persistent poverty areas such as Strike Force 
and Promise Zones that are most in need of that housing. And fourth, 
the 2016 budget proposes to extend housing vouchers to residents of 
Section 515 properties with maturing mortgages, to the extent possible, 
so eligible tenants in those properties will be given the same 
protection from potentially significant rent increases that is 
currently provided to tenants in Section 515 properties prepaying their 
mortgage.
    Question. Unfortunately, funding for new construction of rental 
housing in rural America is not included in this budget. For rural 
communities facing housing shortages and shrinking state budgets, what 
role do you see the Department having in addressing the need for 
additional units of affordable rental housing in rural America, if not 
through funding?
    Answer. The 2016 budget includes funding for new construction in 
the Section 515 program, as well as in the Section 538 and Farm Labor 
Housing programs. In recent years, the Department has focused on using 
its Section 515 program to help meet the need to revitalize its 
existing housing portfolio, due to the age of the 515 portfolio and the 
expected preservation needs. However, the fiscal year 2016 budget 
includes some funding that would help provide additional affordable 
rental housing in persistent poverty areas where the housing needs are 
greatest.
    Rental Assistance would also be available to support tenants in 
that new housing. The Section 538 guaranteed program provides another 
avenue for new construction of affordable housing; nearly all of the 
program's housing includes Low Income Housing Tax Credits, which 
ensures that only low income residents qualify for the housing.
                     food safety modernization act
    Question. I am very worried about the potential impact the new FDA 
food safety regulations could have on our small farms in Vermont. That 
is why I pushed for the authorization of the new Food Safety Outreach 
Program in FSMA, because your USDA staff and extension agents are best 
suited to help small and mid-size farms and small local food processing 
facilities comply with the new food safety regulations. I believe that 
if we do not educate before we regulate, we are just setting the FDA up 
for failure.
    Can you tell me how USDA will use the $2.5 million in fiscal year 
15 funds to help farmers comply with this onslaught and burden of 
potential fees, paper work, and confusing rules? And do you think there 
are enough resources being allocated to help our produce farmers and 
those involved with any value-added or on-farm processing to understand 
these complex new rules?
    Answer. The U.S. Food and Drug Administration (FDA) and the U.S. 
Department of Agriculture's National Institute of Food and Agriculture 
(NIFA) have joined in a collaborative partnership to administer a 
competitive grant program designed to develop a comprehensive food 
safety training, education and technical assistance program for those 
affected by the Food Safety Modernization Act (FSMA). Specifically, the 
program will address the needs of owners and operators of small and 
medium-sized farms, beginning farmers, socially disadvantaged farmers, 
small processors, or small fresh fruit and vegetable merchant 
wholesalers. Although these entities will be directly impacted by new 
FSMA guidelines, many lack access to the resources needed to implement 
those guidelines. Both FDA and USDA recognize that food safety 
training, education, and technical assistance for these entities are 
critical to ensuring awareness and compliance with new produce safety 
standards and preventive controls for human and animal food proposed 
under FSMA future appropriation.
    The joint program will award grant funds that enable awardees to 
establish a National Coordination Center for Food Safety Outreach and 
four Regional Food Safety Training Centers (Regional Centers). The 
National Coordination Center will provide overall leadership for 
support and coordination of the Regional Centers, while ensuring that 
food safety training, education, outreach, and technical assistance 
across the entire program are consistent with FSMA guidelines. Each 
Regional Center will lead, manage, and coordinate the regional 
development and implementation of food safety training, education, 
outreach and technical assistance programs for the intended audiences. 
Both FDA and NIFA will work with Regional Centers and the National 
Coordination Center to help establish and maintain an effective and 
sustainable program that will meet the ongoing needs of intended 
audiences affected by new FSMA guidelines.
    While the $2.5 million appropriated in fiscal year 15 will enable 
NIFA, in coordination with FDA to begin building an infrastructure that 
will support a national food safety training, education, extension, 
outreach, and technical assistance system and provide significant 
opportunities for partnerships with stakeholder groups that include 
produce farmers and those involved with value-added or on-farm 
processing, additional funds, such as the $2.5 million increase 
requested in the President's 2016 budget, will strengthen and further 
expand the infrastructure in ways that will benefit multiple 
stakeholder groups.
            national organic standards board recommendations
    Question. This year marks 25 years since the first Organic Farm 
Bill was signed in to law. At the time, many in the Senate dismissed it 
as a niche activity that was never going to amount to much.
    Organic product sales in the United States are now valued at $35 
billion a year and have posted double-digit growth year after year 
after year. The only way this growth can continue and our farmers can 
benefit, is if we can assure consumers that the USDA Organic logo 
stands for something strong. There is a lot of confusion among 
consumers today and one area of particular interest to me is 
surrounding regulations on how animals are raised and their access to 
pasture. This is a basic tenet of organic production. Livestock must 
have access to fresh air and sunshine whenever possible.
    In 2011 the National Organic Standards Board put forward a 
recommendation that the Department move forward with a rulemaking 
process laying out the standards for livestock healthcare and living 
conditions, including access to the outdoors.
    What assurances can you give me that the Department is moving 
forward to finally respond to the recommendations put forth by the 
National Organic Standards Board?
    Answer. The National Organic Standards Board (NOSB) has provided 
over 200 recommendations regarding the National List of Allowed and 
Prohibited Substances as well as over 150 recommendations concerning 
other aspects of the USDA organic standards. The Department has 
implemented 222 of the National List recommendations and 127 of the 
general organic standards recommendations and incorporated them into 
the USDA organic regulations. USDA plans to respond to the outstanding 
National List recommendations from October 2014 and NOSB 
recommendations regarding the prohibition of sodium nitrate in organic 
production within the next 2 years. An additional 13 recommendations 
will be addressed through current initiatives, which include rulemaking 
on origin of livestock, aquaculture, pet food, apiculture, and animal 
welfare. USDA is also establishing a Hydroponics/Aquaponics Task Force 
that will report to the NOSB regarding their Greenhouse recommendation.
                         usda wildlife services
    Question. The USDA Animal Plant Health Inspection Service (APHIS) 
is the charged with, among other things, protecting agriculture and 
fisheries from nuisance and invasive species. For many years APHIS was 
the lead agency in controlling the double crested cormorant 
(cormorants) populations on Lake Champlain in Vermont and New York as 
well as across the region including the upper Saint Lawrence River, the 
Finger Lakes of New York, Lake George and other large water bodies. 
Cormorants are considered a nuisance species in this region and peer 
reviewed scientific studies have shown that in some cases cormorant 
predation can have a negative impact on commercial and sportfish 
stocks. The birds also have an easily observed devastating impact on 
public and private property where they roost and nest.
    In recent years, however, APHIS cormorant control activity on Lake 
Champlain has been greatly reduced and this correlates with an increase 
in cormorant numbers. I am hearing from concerned Vermonters that in 
the time since the USDA Wildlife Services has cut back on resources 
being directed to reduce cormorant numbers on Lake Champlain we have 
seen a dramatic spike in this migratory birds population, which has an 
easily observed negative impact on terrestrial habitat and many feel is 
also having a severely detrimental effect on game fish populations.
    What amount of funds does the USDA propose to allocate to cormorant 
control activities on Lake Champlain in New York and Vermont in fiscal 
year 16?
    Answer. USDA plans to spend $15,000 in fiscal year 2016 to reduce 
the impact of the cormorant population in the Lake Champlain region.
    Question. Will this funding be sufficient to enable APHIS to 
control cormorant populations on Lake Champlain at a level that 
mitigates the worst damage to private and public property and to 
commercial and sportfish stocks of Lake Champlain?
    Answer. If USDA funding is not sufficient to fully address the 
issue, APHIS could provide additional cormorant control on a requested 
basis if cooperative funding were made available through other Federal 
or State sources, grants, or agreements with non-government entities.
                         tree and forest pests
    Question. When I look at the request in your budget for the Animal 
Plant Health Inspection Service (APHIS) Tree & Wood Pests work and 
another massive cut in its funding I am shocked. While they may not get 
the sort of news coverage that the forest fires out west often do, the 
invasive pests in our forests are a critical threat to our forests and 
our economy.
    Despite the increasing risk and impacts, funding for the ``Tree and 
Wood Pest'' account has been reduced by nearly 30 percent since fiscal 
year 11. The President's budget now proposes cutting the program 
further, from $54 million to $46 million. Even at current funding 
levels for this budget account, APHIS cannot maintain efforts to 
curtail spread of insects that are already established, much less 
respond to new threats every year.
    With the funding level requested in your budget will the Department 
continue to focus on the eradication of the Asian longhorned beetle 
that threatens Vermont's forest industry and our sugarmakers? And with 
this proposed $8 million reduction in spending what work is the 
Department proposing to cease related to tree and wood pests?
    Answer. The Asian long-horned beetle (ALB) is a serious, invasive 
tree pest that threatens roughly 30 percent of U.S. trees that are 
potential hosts. APHIS continues to focus on the eradication of ALB. 
Since APHIS began the ALB eradication program in 1996, the Agency has 
successfully eradicated infestations from Jersey City, Middlesex 
County, and Union County, New Jersey; Islip, Staten Island and 
Manhattan, New York; and Boston, Massachusetts. In addition to these 
northeast States, APHIS has also successfully eradicated ALB from an 
infestation in Chicago, Illinois. The Agency is currently conducting 
ALB eradication activities in northeast forests in New York and 
Massachusetts, as well as in Ohio.
    APHIS is proposing decreases to two areas of the Tree and Wood 
Pests program: the ALB eradication program and emerald ash borer 
program. These proposed decreases are to allow for more equitable 
sharing of costs between the Federal government and those who benefit 
from these important programs. If cooperators are able to increase 
their contributions to the programs, they will continue to operate at 
their current levels. If contributions to the programs do not increase, 
APHIS would focus available resources on preventing the spread of pests 
and diseases to new areas.
                                 ______
                                 
              Questions Submitted by Senator Tammy Baldwin
                  margin protection program for dairy
    Question. As we look back at the first round of signups for the new 
Dairy Margin Protection Program, we saw just over half of the dairy 
farmers in the country sign up, and about 55 percent of those bought up 
to higher levels of coverage beyond the base, catastrophic level. 
Wisconsin's sign up percentages were only slightly better than the 
national average. What is USDA planning to do to make it easier for 
farmers to sign up for 2016?
    Answer. The Margin Protection Program for Dairy (MPP-Dairy) is a 
significant change for dairy producers that were accustomed to the Milk 
Income Loss Contract (MILC) program, since MILC did not require fees or 
premiums to be paid. The first year enrollment for MPP-Dairy compares 
very favorably to the initial enrollments for other risk protection 
programs such as initial crop insurance offerings.
    USDA will build on our successful outreach efforts including 
partnering with Extension Services to ensure all dairy producers are 
informed about the coverage options provided under MPP-Dairy. Current 
participants also will receive a reminder letter providing them with 
their previous coverage options and applicable forms that can be mailed 
back to the Farm Service Agency (FSA) county office, along with their 
applicable fees, for continuous coverage into 2016 without requiring 
another trip to the local FSA office.
    Question. One of the things that I am hearing from back in 
Wisconsin is that it would be very helpful for USDA to allow dairy 
cooperatives to deduct the premiums for the MPP program from their 
producers' monthly milk checks, and submit the payments to USDA on 
their behalf. Currently, farmers' options are to pay their MPP premiums 
in one lump-sum annual payment or two annual payments. That can result 
in some big payments and cash flow challenges that might deter some 
farmers from participating fully in the program. This may be 
particularly true for next year, because prices are much lower than 
during the last sign up, so farmers have less cash on hand. Will USDA 
be modifying the rules for the 2016 sign up to allow for monthly 
payments of MPP premiums through their cooperatives?
    Answer. USDA supports providing additional MPP-Dairy premium 
payment options to provide more flexibility to producers. Even in the 
first year, FSA provided an initial option that allowed producers to 
pay premiums later in the year after coverage had begun and back loaded 
the premiums so that only 25 percent was due initially. Even with this 
additional producer friendly option, 60 percent of producers paid the 
premium in full in 2014. With respect to cooperatives, there is no 
prohibition on another party paying the fees on behalf of a producer. A 
private arrangement between a cooperative and a producer would be 
possible now as long as the cooperative met the same deadlines for 
premiums being paid.
    We understand that cooperatives may not be interested in assuming 
the role of aggregating premiums and potentially prepaying for their 
members. We are therefore exploring the possibility of allowing monthly 
payments of premiums either directly or through cooperatives. We 
believe this would be a favored enhancement to the program that would 
increase participation. While this option will not likely be available 
during enrollment, we are exploring the option in some form for the 
2016 premiums later this year.
    Question. As we think about the next sign up, one thing that would 
be very helpful is to have data about what decisions farmers made for 
2015. Currently, we know what percentage of farmers in every state 
signed up, and what percentage bought up to higher levels of coverage. 
What we don't know is a breakdown of what buy up coverage levels they 
purchased. A farmer that buys up has an option of purchasing protection 
for a $4.50 margin protection level, all the way up to an $8 coverage 
level. This information would be extremely helpful information to have. 
Is that something you could provide to us in the near future?
    Answer. The coverage level breakdown for 2015 MPP-Dairy is 
available at http://www.fsa.usda.gov/Internet/FSA_File/
ta_2_mpp_ct_ops_by_cvge_lev.pdf. The information is provided below for 
the record.
    [The information follows:]

                                                              TABLE 2--COUNT OF DAIRY OPERATIONS BY COVERAGE LEVEL FOR 2015 MARGIN
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                             State                                 $4.00        $4.50        $5.00        $5.50        $6.00        $6.50        $7.00        $7.50        $8.00        Total
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Alabama.......................................................           14  ...........            1  ...........            1  ...........  ...........  ...........  ...........           16
Alaska........................................................            2  ...........  ...........  ...........  ...........  ...........  ...........  ...........  ...........            2
Arizona.......................................................           46  ...........  ...........  ...........           33            1  ...........            1  ...........           81
Arkansas......................................................           24  ...........            4            1           13           19            2            3  ...........           66
California....................................................          794            5           70           14          168           42            1           18  ...........        1,112
Colorado......................................................           59  ...........            4            1           15            9  ...........            1            4           93
Connecticut...................................................           17  ...........            1  ...........           10           48            3           11  ...........           90
Delaware......................................................           15  ...........  ...........  ...........            1            4  ...........  ...........  ...........           20
Florida.......................................................           57  ...........            2            3           19            5  ...........            1  ...........           87
Georgia.......................................................           99  ...........            1            3           36           21            6           17            3          186
Hawaii........................................................            1  ...........  ...........  ...........  ...........  ...........  ...........  ...........  ...........            1
Idaho.........................................................          255            2            7            5           34           41            5           10            1          360
Illinois......................................................          225            3           11            4           79          143           17           46            6          534
Indiana.......................................................          273            7            8            3           57           78            4           16            8          454
Iowa..........................................................          325            4           14           14          144          315           36          100           12          964
Kansas........................................................           96            2            2            5           28           45            1           14            3          196
Kentucky......................................................          165            1            7            4           80           86            7           41            3          394
Louisiana.....................................................           41  ...........            2            1           10           14            3            7            1           79
Maine.........................................................           99            3            2            3           10           62            4            6  ...........          189
Maryland......................................................          113            1            6            3           36           42  ...........           14            1          216
Massachusetts.................................................           19  ...........            1            3            9           34           12           33            1          112
Michigan......................................................          563            9           42           38          175          173           22           42           19        1,083
Minnesota.....................................................          704           12           54           40          360        1,232           73          174           35        2,684
Mississippi...................................................           37  ...........            1            3            7           13            1            2            1           65
Missouri......................................................          123            3           16           10           98          228           31          103           13          625
Montana.......................................................           28  ...........            6  ...........            8            8  ...........            1  ...........           51
Nebraska......................................................           72  ...........            4            4           30           38            3            3            2          156
Nevada........................................................           16  ...........  ...........  ...........            1            2  ...........  ...........  ...........           19
New Hampshire.................................................           13  ...........  ...........  ...........           12           24            5           15  ...........           69
New Jersey....................................................           17  ...........            1  ...........            6           15            3            1            2           45
New Mexico....................................................           73  ...........            6            1           51            3  ...........  ...........            1          135
New York......................................................        1,037           16           75           69          371          692           39          107           28        2,434
North Carolina................................................           87            1            3            4           27           39  ...........           13            4          178
North Dakota..................................................           30  ...........            1            1            6           22  ...........            4            1           65
Ohio..........................................................          607            2           31           22          131          170           15           54            4        1,036
Oklahoma......................................................           67  ...........  ...........  ...........           10           17            1            4            1          100
Oregon........................................................          111            1            5            3           10           20            1            8  ...........          159
Pennsylvania..................................................          902           12           84           53          380          570           33          111           20        2,165
Puerto Rico...................................................           32            2            3  ...........            4            1  ...........  ...........  ...........           42
Rhode Island..................................................            2  ...........  ...........            1            1            5  ...........            1  ...........           10
South Carolina................................................           16  ...........  ...........            1            3            3  ...........            4  ...........           27
South Dakota..................................................           89  ...........            4            2           30           71            6            6            1          209
Tennessee.....................................................          148  ...........            4            1           22           64            3           18            2          262
Texas.........................................................          148  ...........           15           13          101           58            7           22            7          371
Utah..........................................................          114  ...........            5            4           19           23            2            1            1          169
Vermont.......................................................          207            1           15            7           83          203           18           54  ...........          588
Virginia......................................................          129  ...........           15            2           60          124           12           32            6          380
Washington....................................................          129            2            8           12           58           83            7           12            1          312
West Virginia.................................................           11  ...........            1  ...........            8            3            1            4  ...........           28
Wisconsin.....................................................        2,635           47          198          147          973        1,544          118          294           69        6,025
Wyoming.......................................................            2  ...........            1  ...........  ...........  ...........  ...........            1  ...........            4
Total.........................................................       10,888          136          741          505        3,828        6,457          502        1,430          261       24,748
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

                            organic research
    Question. The double-digit growth in annual demand for organic 
products in this country is very exciting. But that demand is far 
outpacing growth in domestic production, requiring us to import greater 
amounts of organic product to meet consumer needs. I believe, and I 
think you would agree, that these are jobs that we can and should keep 
in this country.
    Organic research funding has also not kept pace with the growth in 
the organic sector. One of the great things about organic research is 
that much of it is useful to conventional farmers as well. For 
instance, research into ways to manage livestock herd health without 
the use of antibiotics may be an organic priority, but is has great 
utility for conventional livestock farmers too.
    Last year, USDA's National Organic Standards Board put out a list 
of unmet organic research priorities, many of them to tackle issues 
that have either hindered domestic organic production, or would help 
increase domestic production of organic products.
    I believe this makes the case for us to increase USDA funding for 
organic research, either by increasing overall funding for programs 
such as the Organic Transitions Program (within NIFA), or to do more 
organic research within the larger AFRI program. Without adequate 
research into the challenges facing U.S. organic farmers, it will be 
very difficult for us to keep pace with the exploding demand.
    Wisconsin is the number 2 state in the nation for organic 
production and in terms of number of producers. (California is number 
1). I believe there is great potential for growth in organic farms in 
Wisconsin, but research is key to that goal.
    Could you provide for the record an accounting of how much organic 
research has been conducted through the AFRI program over the last 5 
years, with the trend lines?
    Answer. The information is provided for the record.
    [The information follows:]

                            AGRICULTURE AND FOOD RESEARCH INITIATIVE ORGANIC RESEARCH
----------------------------------------------------------------------------------------------------------------
                      Fiscal Year                                 NRI/AFRI Funding Amount (in dollars)
----------------------------------------------------------------------------------------------------------------
2009..................................................                                                  $425,000
2010..................................................                                                  $189,000
2011..................................................                                                  $258,000
2012..................................................                                                  $271,000
2013..................................................                                                  $200,000
2014 \a\..............................................                                                  $566,000
2015 \b\..............................................                                                  $600,000
2016 \b\..............................................                                                  $600,000
Total, AFRI Organic Research..........................                                                $3,109,000
----------------------------------------------------------------------------------------------------------------
\a\The amount for fiscal year (FY) 2014 is the current program estimate.
\b\The amounts for fiscal years 2015 and 2016 are straight lined based on the fiscal year 2014 current program
  estimate.

                            trend line table
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Awards are based on applications received and highly meritorious 
projects recommended for award. Therefore, fluctuations will occur.
    The variation represents a decline of one grant between 2009 and 
2010 followed by static funding through 2013. Due to the small sample 
size (i.e., one to two grants funded per year), this is a normal 
variation in funding for any topic.
    Question. Can you also speak about the importance of organic 
agricultural research to meeting USDA's own stated goals for growing 
the organic sector?
    Answer. There has been double-digit growth in annual demand for 
organic products. Domestic production has not been able to satisfy this 
demand and imports have filled this void. While it might make sense to 
import products that are typically not grown domestically like olive 
oil, coffee, coconut, banana etc., large quantities of other products 
like organic livestock feed and organic soybean, for instance, continue 
to be imported although they could be produced domestically.
    In part through research, USDA is committed to assisting the 
organic sector. The recent 2014-2018 USDA strategic plan stresses the 
need for USDA to ``support research and education that enables organic 
production.'' (Goal 1) This emphasis in the USDA Strategic Plan is 
reflected in the 2014 Research, Education, and Economics (REE) Action 
plan (Goal 1A) as it calls for action to ``Develop more sustainable 
production systems for conventional, organic and low input crops ...'' 
Goal 7 calls for the need to ``Develop and share knowledge to help 
stakeholders implement successful organic production and marketing 
systems in response to growing consumer demand.''
    USDA, in particular NIFA and ARS, has invested in research to 
achieve these goals. The two major competitive programs that support 
organic agriculture research within NIFA are: ORG-Organic Transitions 
and OREI--Organic Agriculture Research and Extension Initiative. Since 
2001, both programs have received 1,026 proposals of which only 186 
were funded within available resources. Organic agriculture research 
has been encouraged in many programs within the Agriculture and Food 
Research Initiative (AFRI).
    ARS scientists conduct organic agriculture research focused on 
understanding the scientific basis of biological and physical processes 
innate to plants, soils, invertebrates, and microbes that naturally 
regulate pest problems and soil fertility to improve product quality, 
economic competitiveness, and supply to meet increasing demand for 
organic products. Since 2008, ARS organic research activities have been 
conducted as part of the Agricultural System Competitiveness and 
Sustainability National Program. ARS organic research activities are 
coordinated with other agencies through the USDA Organic Working Group.
    There is a clear need for research in organic agriculture. This 
work is critical to address the challenges facing producers and 
processors who have already adopted organic standards as well as those 
who are adopting organic practices. This is widely recognized by the 
organic community as a major constraint to domestic production. They 
maintain a long list of research priorities that are essential to meet 
producers' needs, including, but not limited to, developing cultural 
practices and other allowable alternatives to substances recommended 
for removal from National Organic Programs' National List of Allowed 
and Prohibited Substances; conducting advanced on-farm crop, livestock, 
or integrated livestock-crop research; and strengthening of organic 
crop seed systems, including seed and transplant production and 
protection, and plant breeding for organic production, with an emphasis 
on publically available releases.
             national organic program sunset policy change
    Question. One of the unique things about the organic sector is that 
the Organic Foods Production Act (OFPA) lays out a very rigorous 
process for considering what synthetic materials can be used in organic 
production and handling, to make sure they meet a stringent list of 
scientific, environmental and compatibility criteria. The National 
Organic Standards Board (NOSB) is in charge of this process, which has 
helped to build trust in the USDA organic seal.
    For a synthetic material to be used in organic production, USDA's 
long-standing interpretation of the law has been that at least 2/3rds 
of the NOSB members must vote in favor of adding that material to the 
``National List'' of allowed materials. Once on the List, the USDA 
policy required that the material be reviewed every 5 years and 
relisted again by a vote of at least 2/3rds of the NOSB. Most materials 
have garnered the necessary votes in order to remain approved. However, 
the sunset review process changed dramatically in September of 2013, 
when USDA's National Organic Program announced a major shift in this 
policy, without undertaking a full notice and comment process.
    I am hearing a lot of concern from the organic community about both 
the process and substance of this policy change for such a critical and 
unique aspect of the USDA organic program, which is tied to the 
integrity of the organic label.
    Until USDA's policy change, the same high hurdle of scientific 
scrutiny used to consider a material's usage in organic when it was 
first allowed was also used to review it after 5 years. The policy 
required a 2/3rds vote of the NOSB for the initial placement of a 
material on the ``National List'' to allow its usage in organic, and 
also required a 2/3rd vote of the NOSB after 5 years to allow the 
material to be renewed and remain on the List for another 5 years. Now, 
under the new policy, once a material is on the List, it stays on the 
List unless 2/3rds of the Board members vote to remove it from the List 
of allowed materials. This is a reversal of the previous policy and 
procedure.
    Can you explain why USDA would make such a big policy change in 
this process, and reinterpretation of the law, without any notice and 
comment process?
    Answer. USDA strongly supports organic agriculture, and is 
committed to establishing a level playing field that protects all 
organic farms and businesses. Public participation is vital to USDA's 
work in organics, and we always encourage all members of the public to 
take part in opportunities to do so.
    On September 16, 2013, the National Organic Program announced a 
revised sunset review and renewal process that would help protect 
organic farmers and consumers. We also increased public engagement and 
transparency, allowing more opportunity for public comment by providing 
two public comment periods for each substance undergoing sunset review.
     This matter is currently under pending litigation and we are not 
able to comment further.
                           forest management
    Question. In the budget request, the Forest Service talked a lot 
about ecological resiliency. This is important to Wisconsin 
stakeholders, given that their livelihoods and way of life depends on a 
healthy forest. But economic resiliency is also fundamentally important 
in Wisconsin. In contrast to other states, in Wisconsin we are 
fortunate to have a forest products industry that can partner with the 
Forest Service to accomplish Federal goals for timber management, 
forest restoration, ecosystem services, and infrastructure repair.
    The Forest Service is not doing enough to address the economic 
resiliency of our communities which are dependent on the forest. Our 
industry partners, and many conservation partners, are frustrated with 
the agency. They would like to see more transparent communication from 
the forest and region about timber sale goals. They would like to 
dialog with the agency about the content and timing of upcoming sales, 
so that industry can plan other work on non-Federal land, and ensure 
our hardwood and pulpwood mills have a steady supply of material. They 
would like to see more work done.
    What tools in the budget are most important to accelerating active 
forest management in Wisconsin? What tools does the agency need to 
achieve this goal?
    Answer. Forest Products, Vegetation Management, and Roads budget 
line items are critical in supporting all activities for the timber 
program and to increase the pace and scale of restoration. Resources to 
support the road system, including replacement/repair of bridges, are 
critical to achieving the forest management goals. These budget line 
items have been negatively impacted by increased fire suppression costs 
over the years. The primary tool that the agency needs to address 
accelerated forest management in Wisconsin, as elsewhere, is the fire 
cap adjustment. Funding extraordinary fires outside the agency cap will 
free up resource dollars under the Interior bill's currently tight 
discretionary funding caps. This will help fund key restoration, fire 
preparedness, and infrastructure programs, including Integrated 
Resource Restoration, CFLRP, Suppression, Landscape Scale Restoration, 
and it allows high levels of investment in Hazardous Fuels to be 
maintained from prior years. These restoration programs help create 
healthier, more resilient, and more fire-adapted landscapes where fire 
can visit a site with less than devastating consequences and 
communities are better able to live with fire and other disturbances.

                          SUBCOMMITTEE RECESS

    Senator Moran. I thank everyone again for attending today's 
hearing, and we are adjourned.
    [Whereupon, at 11:11 a.m., Tuesday, March 17, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
